<html>
<title> - MISCELLANEOUS PARKS BILLS</title>
<body><pre>[Senate Hearing 109-74]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-74

                       MISCELLANEOUS PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 242                                S. 262

                           S. 336                                S. 670

                           S. 777                                H.R. 126


                                     

                               __________

                             APRIL 28, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-582                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 JON S. CORZINE, New Jersey
                                     KEN SALAZAR, Colorado

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     3
Allen, Hon. George, U.S. Senator from Virginia...................     5
Feinstein, Hon. Dianne, U.S. Senator from California.............    23
Hutchison, Hon. Kay Bailey, U.S. Senator from Texas..............     2
Jones, Hon. Walter B., U.S. Representative from North Carolina...     9
Lowe, Felicia, Vice President of the Board, Angel Island 
  Immigration Station Foundation, San Francisco, CA..............    24
McCain, Hon. John, U.S. Senator from Arizona.....................     2
Noonan, Patrick F., Chairman Emeritus of the Conservation Fund, 
  Arlington, VA..................................................    29
Salazar, Hon. Ken, U.S. Senator from Colorado....................     3
Sarbanes, Hon. Paul S., U.S. Senator from Maryland...............     6
Soukup, Michael, Associate Director, Natural Resources 
  Stewardship and Science, National Park Service, Department of 
  the Interior                                                       12
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Warner, Hon. John, U.S. Senator from Virginia....................     9

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    35

                              Appendix II

Additional material submitted for the record.....................    41

 
                       MISCELLANEOUS PARKS BILLS

                              ----------                              


                        THURSDAY, APRIL 28, 2005

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. I will call the meeting to order. Thank you 
all for being here.
    I want to welcome Mike Soukup from the National Park 
Service and other witnesses today for today's subcommittee 
hearing.
    Our purpose for the hearing is to receive testimony on five 
Senate bills and one House bill. S. 242 is a bill to establish 
four memorials to the Space Shuttle Columbia in the State of 
Texas. S. 262 is a bill to authorize appropriations to the 
Secretary of the Interior for the restoration of the Angel 
Island Immigration Station in the State of California. S. 336 
is a bill to direct the Secretary of the Interior to carry out 
a study of the feasibility of designating the Captain John 
Smith Chesapeake National Historic Watertrail as a National 
Historic Trail. S. 670 is a bill to authorize Secretary of the 
Interior to conduct a special resource study of sites 
associated with the life of Cesar Chavez and the farm labor 
movement. S. 777 is a bill to designate Catoctin Mountain Park 
in the State of Maryland as the Catoctin Mountain National 
Recreation Area, and for other purposes. And finally, H.R. 126 
is a bill to amend Public Law 89-366 to allow for an adjustment 
in the number of free-roaming horses permitted in Cape Outlook 
National Seashore.
    The Angel Island funding is a particular concern. The site 
is of historical significance as a west coast center, but it is 
not a unit of the National Park. It is a State-operated 
facility by the State of California. Use of Federal funds does 
not seem appropriate at a time when we are struggling to find 
funds to correct the maintenance backlog of our parks. I am 
looking forward to hearing testimony on the bill and discussing 
it further.
    I thank my colleagues from the Senate who are here and all 
the witnesses for coming today. I look forward to hearing the 
testimony.
    Senator Akaka.
    [The prepared statements of Senators Hutchison, McCain and 
Salazar follow:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator From 
                            Texas, on S. 242

    Mr. Chairman and subcommittee members. Thank you for including S. 
242, The Columbia Space Shuttle Memorials Act of 2005, in today's 
hearing.
    High over Texas and just short of home, Space Shuttle Columbia 
exploded to pieces on February 1, 2003 raining debris over hundreds of 
miles of countryside. Seven astronauts perished--a gut-wrenching loss 
for the country and the world. The catastrophe occurred 39 miles above 
the Earth, in the last 16 minutes of the 16-day mission as the 
spaceship re-entered the atmosphere for a glide-in landing in Florida. 
In its horror and in its backdrop of a crystal blue sky, the day echoed 
one almost exactly 17 years before when the Space Shuttle Challenger 
exploded.
    More than two years have passed since we lost the Columbia Space 
Shuttle and its brave crew. Still today no national memorial exists to 
honor the seven Americans whose lives were tragically cut short in 
pursuit of the newest frontier, space.
    No memorial will ever erase the grief shared by so many on that 
fateful day, particularly for the families, but rather it will serve as 
a reminder to the world of the tremendous sacrifice our seven 
astronauts made. I personally will never forget hearing the sonic boom 
early that February morning, as Columbia disintegrated over my home 
state of Texas. This tragedy will forever remind America and the world 
of the importance of our continued commitment to explore space and the 
risks that those who make the journey face on every mission.
    I appreciate the committee holding a hearing on this bill so we can 
recognize and honor the loss and sacrifice of the Columbia crew. In 
short, S. 242 would authorize the National Park Service to establish 
four memorials in areas where large pieces of debris from the Space 
Shuttle were recovered.
    I look forward to working with my colleagues to pass this 
legislation. I thank you again for holding a hearing on this important 
matter.
                                 ______
                                 
  Prepared Statement of Hon. John McCain, U.S. Senator From Arizona, 
                               on S. 670

    I would like to thank the distinguished Chairman for holding this 
hearing on legislation affecting National Parks.
    I am pleased to be joined by Senator Salazar in sponsoring S. 670, 
the Cesar Estrada Chavez Study Act, which we introduced on March 17, 
2005. S. 670 would authorize the Secretary of the Interior to conduct a 
special resource study of sites associated with the life of Cesar 
Chavez and to determine whether any of the significant sites meet the 
criteria for being listed on the National Register of Historic 
Landmarks. The goal of this legislation is to establish a foundation 
for future legislation that would then designate land for the 
appropriate sites to become historic landmarks. An identical bill 
passed the Senate unanimously during the last Congress, has received an 
overwhelming positive response, not only from my fellow Arizonans, but 
from Americans all across the nation.
    Cesar Estrada Chavez stands out in American history for helping 
Americans transcend distinctions of experience and share equally in the 
rights and responsibilities of freedom. Though he no doubt loved 
qualities of life associated with his family's Hispanic heritage, he 
will be remembered for the sincerity of his patriotism and for helping 
to make America a bigger and better nation. For all of these reasons, I 
express my support for the Cesar Estrada Chavez Study Act.
    Cesar Chavez, an Arizonan born on a small farm near Yuma, was the 
son of migrant farm workers.
    While his formal education ended in the eighth grade, his 
insatiable intellectual curiosity and determination helped make him 
known as one of the great American leaders for his successes in 
organizing migrant farm workers.
    During the Great Depression, the Chavez family lost their farm and 
as a result, they migrated across the southwest looking for farm work. 
His exposure to the hardships and injustices of farm worker life helped 
Chavez evolve into a defender of worker's rights. He founded the 
National Farm Workers Association in 1962, which later became the 
United Farm Workers of America (UFWA). As leader of the UFWA, Chavez 
was able to attain fair wages, medical coverage, pension benefits, and 
humane living condition, along with countless other rights and 
protections for farm workers.
    Cesar Chavez gave a voice to those who had no voice. In his words, 
``We cannot seek achievement for ourselves and forget about progress 
and prosperity for our community . . . our ambitions must be broad 
enough to include the aspirations and needs of others, for their sakes 
and for our own.''
    Cesar Chavez was a humble man of deep conviction who understood 
what it meant to serve and sacrifice for others. His motto in life, 
``si, se puede'' or it can be done, epitomizes his life's work and 
continues to influence those wishing to improve our nation. Honoring 
the places of his life will enable his legacy to inspire and serve as 
an example for our future leaders.
    Thank you again for holding today's hearing and for allowing me to 
express my strong support for this legislation.
                                 ______
                                 
  Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado, 
                               on S. 670

    It was with great pleasure that I joined with Senator McCain 
earlier this year to introduce Senate Bill 670, the Cesar Estrada 
Chavez Study Act.
    The Cesar Estrada Chavez Study Act is a straightforward bill that 
takes an important first step in memorializing the tremendous 
contributions of an exemplary American and a passionate champion of 
human and civil rights.
    The bill will direct the National Park Service to conduct a study 
of the sites associated with the life of Cesar Chavez, which will help 
lay the necessary groundwork for the preservation of these sites as 
national historic landmarks.
    As a leader that helped shine a light on the plight of America's 
often forgotten farm workers, Mr. Chavez is a personal hero of mine.
    Cesar Chavez came from humble roots, but his strength of character 
led him to achieve great things--he was born on March 31, 1927 in Yuma, 
Arizona, where he spent his early years on his family's farm.
    At the age of 10, his family lost their farm in a bank foreclosure, 
forcing them to join the thousands of farm workers that wandered the 
Southwest to find work.
    He worked in the fields and vineyards with his family, where he 
experienced first-hand the hardships and the injustices in farm worker 
life, and became determined to bring dignity to farm workers.
    In 1962, he founded the National Farm Workers Association, which 
would later become the United Farm Workers of America (UFW). And 
through the UFW, Chavez called attention to the terrible working and 
living conditions of America's farm workers.
    Most importantly, he organized thousands of migrant farm workers to 
fight for fair wages, health care coverage, pension benefits, livable 
housing, and respect.
    Chavez once remarked, ``It is my deepest belief that only by giving 
our lives do we find life.'' He gave his life to ensure farm workers 
were afforded the rights and dignity they deserved, and it is time we 
honor him by preserving his life and legacy.
    I hope that we can move forward and swiftly send the Cesar Chavez 
Act to full Senate for consideration.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman, and thank 
you for scheduling this hearing.
    Most of the bills on today's agenda are noncontroversial, 
and I look forward to working with you and all of the bill 
sponsors to move them through the committee as soon as 
possible.
    I would like to take a minute to talk about one of the 
bills that is of particular interest to me, and that is S. 262, 
the Angel Island bill. The history of Angel Island is an 
important chapter in our Nation's history, and I am pleased to 
be an original cosponsor of Senator Feinstein's bill to help 
with the restoration of the Angel Island Immigration Station.
    I would like to offer a warm welcome to my friend, Felicia 
Lowe, the vice president of the board of the Angel Island 
Immigration Station Foundation, who hosted my tour of the 
immigration station in San Francisco. I also would like to 
welcome Kathy Turner, the new president of the board.
    I visited Angel Island in 1999 because of my interest in 
understanding and documenting the history of Asian Americans, 
Pacific Islanders, and other groups not traditionally 
acknowledged through public history. I had hopes that the 
National Park Service could identify and memorialize movements 
and migrations of many peoples that entered and settled the 
United States through the peopling of America. The immigration 
station at Angel Island is an important part of this history. I 
was moved by the poems that were written on the walls of the 
barracks during the struggle of Japanese and Chinese trying to 
come to the United States. I was impressed with the amount we 
can learn about our collective history through the restoration 
of the immigration facility.
    Angel Island is often referred to as the Ellis Island of 
the West because of the large number of immigrants who arrived 
and were processed through the immigration facilities located 
on the island. However, there was an important difference 
between the two sites. Although both Angel Island and Ellis 
Island processed immigrants to the United States, Angel Island 
was built for the specific purpose of excluding immigrants of 
Asian descent as a result of the 1880 Chinese Exclusion Act and 
other laws targeting Asian immigrants. Much of the history 
associated with Angel Island reflects a dark chapter of 
American history, although an important one. I think it is 
important that we understand the diversity and the complexity 
of our Nation's history, especially of people whose history and 
culture is not as well known as those who arrived through Ellis 
Island. Preserving the buildings at Angel Island will help to 
tell the story.
    Mr. Chairman, I know there is concern with this bill 
because it authorizes a pass-through grant from the National 
Park Service to help restore a non-Federal facility. As a 
general rule, I share the concern that Park Service funding not 
be diluted for non-Federal purposes. However, I think a 
different case can be made for this bill. Angel Island has 
already been designated by the Secretary of the Interior as a 
National Historical Landmark, the highest designation a 
Secretary can bestow, and that showcases Angel Island's 
national significance. In my opinion, Angel Island, like its 
eastern counterpart, Ellis Island, would be an appropriate 
addition to the National Park System.
    However, in this case, the State of California and a 
nonprofit group, the Angel Island Immigration Station 
Foundation, have stepped in to assume management 
responsibilities for the site. Any Federal funds appropriated 
for this purpose must be met with non-Federal funds. The State 
of California has already approved a $15 million bond for 
restoration at Angel Island, which is in addition to other 
State contributions and funds raised by the foundation. And 
this is the story I wanted to tell.
    Mr. Chairman, I would like to welcome the witnesses and 
look forward to hearing their testimony and learning more about 
these bills. Thank you very much.
    Senator Thomas. Thank you, sir.
    Senator Allen, any comments?

         STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Allen. Yes. Thank you, Mr. Chairman. I appreciate 
the opportunity to speak about an important time in our 
history, a place, and a hero, which is part of the rich 
heritage of our Commonwealth of Virginia and ultimately our 
Nation, a measure that I have introduced. In fact, the key 
sponsor, the lead sponsor, along with myself, is Senator 
Sarbanes. Senator Warner is on board, as well as Senator 
Mikulski.
    This has to do with about 400 years ago. Captain John 
Smith, one of America's earliest explorers, sailed into the 
Chesapeake Bay in uncharted waters at that time. He was the key 
founder of the settlement at Jamestown. He spent 3 years from 
1607 to 1609 exploring and mapping the Chesapeake Bay region 
and the tributaries of the Chesapeake Bay which include the 
Potomac River and the Rappahannock, and clearly also the 
Susquehanna. In fact, all the tributaries are not just in 
Virginia. There are many in Maryland, Pennsylvania, and also in 
Delaware to some extent.
    These were some of the most accurate maps, and I am glad to 
see that there is one here. His voyages and travels throughout 
Virginia and the Chesapeake Bay motivated him to write--and I 
quote--``heaven and earth never agreed better to frame a place 
for man's habitation.'' And so millions of people later agree 
with it.
    So I have joined with Senators Sarbanes, Warner and 
Mikulski to introduce the Captain John Smith Chesapeake 
National Historic Watertrail Study Act of 2005. This 
legislation would investigate the possibility of designating 
the route that Captain John Smith's exploration took him in the 
Chesapeake Bay and its tributaries and make this a National 
Historical Trail. This would expand, in my view, the 
educational and recreational opportunities for people. It would 
protect natural resources, provide economic growth for tourism 
in this region. And it would also fit in perfectly with the 
celebration of the 400th anniversary of the founding of the 
Jamestown colony and focus also on the Chesapeake Bay and its 
many attractions and educational opportunities.
    So with this study and this measure, when the eyes of the 
world will be on Virginia and Jamestown in 2007, which will be 
the 400th anniversary of the founding of Jamestown, I think the 
John Smith Watertrail is a fitting and a framing tribute to the 
birthplace of American democracy and the cradle of American 
liberty.
    I would respectfully ask you, Mr. Chairman, and members of 
this committee to pass this measure as quickly as possible so 
that planning can begin. I think this will be an exciting way 
of having trails in a different sense. It is one that I think 
will enhance tourism and jobs while also protecting the natural 
beauty and the historic heritage of the entire region.
    I thank you and I thank also Senator Sarbanes for his truly 
outstanding and vital leadership on this measure as well. Thank 
you, Mr. Chairman.
    Senator Thomas. Thank you, Senator. 1607.
    Senator Allen. 1607.
    Senator Thomas. Captain Smith did not make it to Wyoming 
then, I do not believe.
    Senator Allen. No, he did not. He did not make it to 
Wyoming, but he would have liked to have.
    [Laughter.]
    Senator Allen. He would have loved to have seen the Tetons.
    I will note Massachusetts was founded in 1620 and if you 
look at the Mayflower Compact, they thought they were landing 
in northern Virginia. If they had seen John Smith's charts, 
they would not have called it northern Virginia. But a whole 
year before the pilgrims set foot up there, Virginia already 
had a legislative body. So when you talk about the cradle of 
democracy, they already had a legislative body. This will help.
    Folks will want to come in from Wyoming probably more in 
the wintertime. In the summer everyone wants to be out there in 
Wyoming.
    Senator Thomas. We will trade you.
    We will start with Senator Sarbanes. Thank you, sir. I 
appreciate your being here.

       STATEMENT OF HON. PAUL S. SARBANES, U.S. SENATOR 
                         FROM MARYLAND

    Senator Sarbanes. Mr. Chairman, Senator Akaka, thank you 
very much for this opportunity to testify on two measures I 
have introduced: one, to redesignate Catoctin Mountain Park as 
Catoctin Mountain National Recreation Area, and the other to 
authorize a feasibility study of designating the route of 
Captain John Smith's exploration of the Chesapeake Bay as a 
National Historic Watertrail.
    Actually on a subsequent panel, you will be hearing from 
Patrick Noonan, founder and chairman emeritus of The 
Conservation Fund, who essentially conceived of the John Smith 
Watertrail and has long been an outstanding leader in the 
protection of wildlife habitat and historic sites throughout 
our country. I know the committee will find his testimony very 
compelling.
    Mr. Chairman, I testified before you in March 2003 and am 
grateful for the support the committee provided then in 
approving the renaming of Catoctin Park in the 108th Congress. 
I hope you can so act again this year and hopefully we will be 
able to get concurrence on the House side. I also hope you will 
be able to move favorably and swiftly on the Captain John Smith 
Watertrail study.
    I have a full statement, which I would like to have 
included in the record, and I will try to summarize in 
deference to the committee's time constraints. But let me just 
underscore the principal rationale behind each of these two 
measures.
    The purpose of S. 777, the Catoctin Mountain National 
Recreation Area Designation Act, is to address the longstanding 
confusion about the ownership and management of Catoctin 
Mountain Park, as it is now known, and to clearly identify this 
park as a unit of the National Park System.
    Home to Camp David, this 6,000-acre park in Frederick 
County, Maryland, has been aptly described by a travel writer 
as America's most famous unknown park. The proximity of 
Catoctin Mountain Park, Camp David, and Cunningham Falls State 
Park, and the differences between the national and the State 
park management have been the source of confusion for visitors 
to the area for a long time. The Federal facility, the Catoctin 
Mountain Park, has been continually misidentified by the public 
as containing lake and beach areas associated with Cunningham 
Falls State Park, which is operated by the State of Maryland, 
and alternatively, as being closed to the public because of 
Camp David. Also, the situation is further confused by the 
presence of the privately-owned Catoctin Wildlife Preserve and 
Zoo. The superintendent of the park tells us that National Park 
employees spend significant time explaining, assisting, and 
redirecting visitors to their desired destinations.
    We propose to remedy this situation by renaming the unit 
the Catoctin Mountain National Recreation Area. The mission and 
characteristics of the park make this designation appropriate. 
It is supported by the Frederick Board of County Commissioners 
and the Tourism Council of Frederick County. The Maryland State 
Highway Administration, perhaps in anticipation of this bill, 
has already changed some of the signs leading to the park to 
reflect the name we propose. This bill would make the name 
change official within the National Park Service and on 
official National Park Service maps.
    Now, S. 336, the Captain John Smith National Watertrail, as 
Senator Allen noted, is a bipartisan and multi-State measure, 
cosponsored by Senators Allen and Warner, Senator Mikulski, and 
Senator Biden. I think it is of great historical importance to 
all of us in that it represents the beginning of our Nation's 
story. As one of the first explorers of the New World, John 
Smith played a key role in the founding and survival of 
Jamestown, the first permanent English settlement in North 
America. His explorations in search of food for the new colony 
and in search of the fabled Northwest Passage--I think he 
thought he would be able to get to Wyoming if he found the 
Northwest Passage.
    [Laughter.]
    Senator Sarbanes. But it took him nearly 3,000 miles around 
the Chesapeake Bay from the Virginia capes to the mouth of the 
Susquehanna. He kept these remarkably accurate maps of the land 
and water, and his journals describing the indigenous people he 
met and the beauty and abundance of the Chesapeake Bay region 
helped launch an era of discovery in the New World.
    As Jamestown's 400th anniversary approaches in 2007--that 
is a real milestone I must say--I think designating this trail 
as our first National Historic Watertrail would be a tremendous 
way to celebrate the beginnings of our Nation's story. It would 
serve to educate visitors about the new colony at Jamestown, 
about John Smith's journey, the history of the 17th century 
Chesapeake region, and the Native Americans that inhabited the 
bay area. It is a real opportunity for recreation and heritage 
tourism, not only for the 16 million people who live in the bay 
watershed, but for visitors from throughout the country and 
from abroad.
    I think this proposed watertrail would be a fitting 
addition to the 13 National Historic Trails established in the 
National Park Service to commemorate major events that shaped 
American history. This, of course, is a study to determine the 
feasibility of such a watertrail.
    The legislation has been endorsed by the Governors of 
Virginia, Pennsylvania, Delaware, and Maryland. It is strongly 
supported by the Izaak Walton League, the Chesapeake Bay 
Foundation, the Chesapeake Bay Commission, and The Conservation 
Fund. Again, I close by thanking and commending Pat Noonan for 
his vision in conceiving this trail. I join with Senator Allen 
in underscoring its importance, and we certainly urge the 
committee to approve this measure and bring it before the full 
Senate for its consideration. Thank you very much.
    [The prepared statements of Senators Sarbanes and Warner 
follow:]

    Prepared Statement of Hon. Paul S. Sarbanes, U.S. Senator From 
                          Maryland, on S. 777

    Thank you, Mr. Chairman and Members of the Committee, for this 
opportunity to testify on two measures I have introduced to re-
designate Catoctin Mountain Park as ``Catoctin Mountain National 
Recreation Area'' and to authorize a feasibility study of designating 
the route of Captain John Smith's exploration of the Chesapeake Bay as 
a National Historic Watertrail.
    I testified before this Committee in March, 2003 and am grateful 
for the support the Committee provided in approving the Catoctin Park 
renaming legislation during the 108th Congress. I hope that the 
Committee can do so again this year and also act favorably and swiftly 
on the Captain John Smith Watertrail study. I would just like to 
underscore today some of the principal rationales behind these two 
measures.
    The purpose of S. 777, the Catoctin Mountain National Recreation 
Area Designation Act, is to address longstanding confusion about the 
ownership and management of Catoctin Mountain Park and to clearly 
identify this park as a unit of the National Park System. The park is 
one of only 17 units in the entire 388-unit National Park System--most 
located in the National Capital Region--that does not have the word 
``national'' in its title. Those units include four parkways, the White 
House, Wolf Trap Farm Park for the Performing Arts and four wild and 
scenic rivers.
    Home to Camp David, this 6000-acre park in Frederick County, 
Maryland has been aptly described by a travel writer as ``America's 
most famous unknown park.'' The proximity of Catoctin Mountain Park, 
Camp David, and Cunningham Falls State Park and the differences between 
national and state park management, have long been the source of 
confusion for visitors to the area. Catoctin Mountain Park has been 
continually misidentified by the public as containing lake and beach 
areas associated with Cunningham Falls State Park, being operated by 
the State of Maryland, or being closed to the public because of the 
presence of Camp David. Likewise, a privately owned Catoctin Wildlife 
Preserve and Zoo is often confused with the park. The Superintendent of 
the Park has advised me that National Park employees spend countless 
hours explaining, assisting and redirecting visitors to their desired 
destinations
    S. 777 seeks to address this situation by renaming the unit the 
Catoctin Mountain National Recreation Area. The mission and 
characteristics of this park make this designation appropriate. The 
legislation is not controversial and would not change current uses 
occurring within the park. It is supported by the Frederick Board of 
County Commissioners and the Tourism Council of Frederick County. The 
Maryland State Highway Administration, perhaps in anticipation of the 
enactment of this bill, has already changed some of the signs leading 
to the Park to reflect this name. This bill would make the name change 
official within the National Park Service and on official National Park 
Service maps.
    S. 336, the Captain John Smith Chesapeake National Historic 
Watertrail Study Act of 2005, is a bipartisan and multi-state measure 
which is co-sponsored by Senators Allen, Biden, Mikulski and Warner. 
The proposed National Historic Watertrail is of great historical 
importance to all Americans in that it represents the beginning of our 
nation's story. As one of the first explorers of the New World, John 
Smith played a key role in the founding and survival of Jamestown--the 
first permanent English settlement in North America. His explorations 
in search of food for the new colony and the fabled Northwest Passage 
took him nearly 3,000 miles around the Chesapeake Bay from the Virginia 
capes to the mouth of the Susquehanna. Smith's remarkably accurate maps 
of the land and water and his journals describing the indigenous people 
he met and the beauty and natural abundance of the Chesapeake Bay 
region helped launch an era of discovery in the New World. Even today, 
his vivid descriptions of the Bay's bounty--oysters so ubiquitous that 
they ``lay as thick as stones'' and ``an abundance of fish, lying so 
thick with their heads above the water, as for want of nets . . . we 
attempted to catch them with a frying pan''--still serve as a benchmark 
for the health and productivity of the Chesapeake Bay.
    As Jamestown's 400th anniversary approaches in 2007, designating 
this trail as our first national historic watertrail would be a 
tremendous way to celebrate the beginning of our nation's story. It 
would serve to educate visitors about the new colony at Jamestown, John 
Smith's journey, the history of 17th century Chesapeake region, and the 
Native Americans that inhabited the Bay area. It would provide new 
opportunities for recreation and heritage tourism not only for more 
than 16 millions Americans living in the Chesapeake Bay's watershed, 
but for visitors to this area throughout the country and abroad. 
Equally important, it would also help highlight our current efforts to 
restore and sustain the nation's largest and most productive estuary.
    In my judgment, the proposed watertrail is a fitting addition to 
the 13 National Historic Trails established in the National Park 
Service to commemorate major events which shaped American history. The 
legislation has been endorsed by the Governors of Virginia, 
Pennsylvania, Delaware and Maryland. It is strongly supported by the 
Izaak Walton League, the Chesapeake Bay Foundation and the Chesapeake 
Bay Commission. I want to commend Pat Noonan for his vision in 
conceiving this trail and urge the Committee to swiftly approve this 
measure and report it to the full Senate for consideration.

                                 ______
                                 
  Prepared Statement of Hon. John Warner, U.S. Senator From Virginia, 
                               on S. 336

    Chairman Thomas, Senator Akaka, and my other distinguished 
colleagues on the Senate's Subcommittee on National Parks, I thank you 
for holding this hearing today so that we may discuss legislation 
important to my state and the Chesapeake Bay.
    In 2007, Virginia, along with the rest of our great Nation, will 
celebrate the 400th anniversary of the historic founding of Jamestown, 
the first permanent English settlement in the New World. At this site, 
back in 1607, an adventurous band of Englishmen, led by Captain John 
Smith, pitched down their stakes on the shores of the Chesapeake Bay, 
tired from a long journey across the blue ocean, but full of hope for 
the possibilities that lay ahead.
    As we Virginians know, Mr. Chairman, nobody was more influential in 
this founding endeavor than Captain John Smith. He was the first 
ambassador to the native peoples of the Chesapeake, exchanging cultural 
customs, and trading goods necessary for the fledgling colonists 
survival. John Smith was also the first English explorer of the many 
creeks and rivers that populate the Maryland and Virginia of today. 
From 1607 to 1609, Captain Smith plied the briny Bay waters, recording 
history and surveying the land, even this patch of Earth where our 
nation's Capitol stands today. In honor of Captain Smith's historic 
3,000 mile journey through the choppy Chesapeake's main stem and 
tributaries, my colleagues and I from the Bay States join together in 
support of legislation authorizing a study of the feasibility of 
designating the Captain John Smith Chesapeake National Historic 
Watertrail.
    What would this trail accomplish? Outside of the obvious tourism it 
would bring to the region, and besides the fact that its creation would 
complement the existing Chesapeake Gateways Network, the Watertrail 
would educate Americans on the perils of our first English settlers, on 
their interaction with the numerous Native tribes, on the voyages they 
undertook to better understand the New World they had come to inhabit. 
First hand, citizens of all ages would be able to retrace the paddle 
strokes and footsteps of Captain John Smith, to see what he saw, to 
learn what he learned. Mr. Chairman, I urge my colleagues to join me in 
supporting this feasibility study for the Captain John Smith Chesapeake 
National Historic Watertrail.

    Senator Thomas. Thank you very much, Senator.
    Congressman Jones.

              STATEMENT OF HON. WALTER B. JONES, 
            U.S. REPRESENTATIVE FROM NORTH CAROLINA

    Mr. Jones. Mr. Chairman, thank you very much, and members 
of the committee, thank you for this opportunity. I have a full 
statement, sir. If I could submit it, and then summarize the 
statement, sir?
    Senator Thomas. It will be included.
    Mr. Jones. Thank you, sir.
    Mr. Chairman, I want to thank you. This is the second time 
in the last year that you have heard this bill and I want to 
thank you and Senator Akaka for that opportunity as well.
    What this bill does, H.R. 126, is this is going to help 
ensure and protect a herd of wild Spanish horses that has 
occupied the Shackleford Banks of North Carolina, which is part 
of the barrier islands, that really have been traced back by 
genetic scientists for 3 centuries. This really goes back to 
the Spanish mustangs from the ships that wrecked off the coast 
of North Carolina. Little horses swam ashore.
    In 1998, with the House and Senate and also with the Park 
Service, we put a bill in that became law that would create an 
existing partnership with the Shackleford Banks Horse 
Foundation, which is based in North Carolina in my district, 
along with the Park Service so that they could work together to 
ensure the future and the viability of the herd.
    What H.R. 126 will do is to take the number which now is 
around 110 and give it a little flexibility and take it to a 
minimum of 110 to a range of 120 to 130.
    Now, this range is based on two very well-known scientists. 
One is a genetic scientist from Princeton University who 
testified on behalf of this legislation a few years ago. His 
name is Dr. Dan Rubenstein. He is internationally known for his 
work. Mr. Chairman, he each and every year for the past 20-some 
years takes students down from Princeton University to the 
barrier islands. They stay there and spend about 4 weeks 
monitoring these horses. It is kind of fascinating to know what 
they are doing to ensure the history and the future of these 
horses.
    In addition to Dr. Rubenstein is Dr. Gus Cothran, who also 
is a genetic specialist from the University of Kentucky. They 
each and every year work with the Park Service down in my 
district, as well as the local citizens, to ensure the 
viability and the future of these little horses.
    I am pleased to say that from 1998 and through today and 
including today, the National Park Service has worked with us 
and has worked hand in hand not only with myself or with our 
Senator Burr and Senator Dole, but also with the local 
citizens. This has been a real success story, sir, of how the 
Federal Government can work with the local people to see a part 
of history maintained and hopefully guaranteed for the future.
    Mr. Chairman, that is a summary of what this does. The bill 
again is to raise the number slightly and that is based on the 
genetic scientists.
    [The prepared statement of Mr. Jones follows:]

 Prepared Statement of Hon. Walter B. Jones, U.S. Representative From 
                      North Carolina, on H.R. 126

    Mr. Chairman, thank you for scheduling this hearing on H.R. 126, 
which adjusts the number of free roaming horses permitted on 
Shackleford Banks in the Cape Lookout National Seashore. As you may 
recall, last year you were kind enough to hold a hearing on H.R. 2055--
a bill I introduced in the 108th Congress that is identical to H.R. 
126.
    Shackleford Banks is a barrier island off the coast of North 
Carolina that has been home to a herd of wild horses for over three 
centuries. In fact, experts believe the herd descended from Spanish 
stallions that were shipwrecked on the island during colonial times.
    Over the years, the Shackleford horses have become an integral part 
of the natural and cultural fabric of Eastern North Carolina. They are 
treasured by the local community and adored by the visitors who come 
from around the world to see them.
    To protect these beautiful creatures, in 1997 I introduced the 
Shackleford Banks Wild Horses Protection Act which the President later 
signed into law. The Act directed the Department of the Interior to 
enter into an agreement with a non-profit group--the Foundation for 
Shackleford Horses--to manage the herd. It also required the Department 
to allow a herd of 100 free-roaming horses in the Seashore, and it set 
out terms under which horses could be removed, including a prohibition 
on removal ``unless the number of horses . . . exceeds 110.''
    As the National Park Service and the Foundation began to implement 
the Act, disagreement erupted over the law's requirements on the size 
of the herd. The Park Service interpreted the Act to mean that the 
herd's population should be kept between 100 and 110. However, as the 
author of the legislation, I can tell you this interpretation was 
inconsistent with Congressional intent, which was to allow the herd to 
hover above 110.
    The Park Service's interpretation also conflicted with the 
established scientific consensus on the size of the herd. Studies by 
world-renowned genetic scientists Dr. Daniel Rubenstein of Princeton 
University, and Dr. Gus Cothran of the University of Kentucky, confirm 
that in order to maintain the herd's long-term viability, its optimum 
size is around 120 animals. The experts also agree that the population 
should not dip below 110 and that it should be allowed to expand 
periodically to numbers at or above 130 in order to sustain the proper 
genetic diversity in the herd. It's important to note that these 
numbers are well within the island's carrying capacity.
    After years of disagreement on the issue of herd size, the Park 
Service met in the fall of 2002 with the Foundation for Shackleford 
Horses, Dr. Rubenstein, Dr. Cothran and other stakeholders to find 
middle ground. After two days of meetings, the parties emerged with an 
agreement that largely mirrors the scientific understanding of how the 
horses should be managed.
    H.R. 126 seeks to codify this scientific consensus into law. It 
would allow a herd of ``not less than 110 free roaming horses, with a 
target population of between 120 and 130 free roaming horses.'' It 
would also clear up confusion on when horses can be removed from the 
island by mandating that removal can only occur if ``carried out as 
part of a plan to maintain the viability of the herd.''
    Mr. Chairman, this non-controversial legislation is supported by 
the Park Service, the scientific experts and the local community. It is 
a legislative fix based on sound science, and I urge the Subcommittee 
to support it.

    Senator Thomas. If I may, we usually do not ask questions, 
but I do not think anyone else is going to testify on this 
bill. Are they?
    Mr. Jones. I do not know, unless the Park Service is.
    Senator Thomas. Why can this not be done without any 
legislation?
    Mr. Jones. Well, it is my understanding that this deals 
with the management plan and if we do not have this spelled out 
legislatively or in the law, it will create some difficulty for 
those that have to interpret the intent of Congress. So based 
on the discussions we have had with the Park Service and also 
with the genetic scientists, they feel that to guarantee the 
viability of the herd, if we can get this little change in it, 
this should take care of it for years to come.
    Senator Thomas. I noticed now, after I asked the question. 
The 1998 law required the park to maintain a free-roaming herd 
between 100 and 110.
    Mr. Jones. Yes, sir.
    Senator Thomas. I see.
    Mr. Jones. I am sorry I did not explain that clearly.
    Senator Thomas. I should have read my paper.
    Thank you very much, sir. We appreciate it.
    Mr. Jones. Thank you, Mr. Chairman.
    Senator Thomas. If we could now get on with our panelists, 
Mr. Michael Soukup, associate director, natural resources 
stewardship and science, National Park Service.

   STATEMENT OF MICHAEL SOUKUP, ASSOCIATE DIRECTOR, NATURAL 
   RESOURCE STEWARDSHIP AND SCIENCE, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Soukup. Thank you for this opportunity. I have six 
bills to testify on, and I am wondering, should I go through 
them now all at one time, or should I do them separately?
    Senator Thomas. No. If would just go through them fairly 
briefly right now, that would be great.
    Mr. Soukup. I will try to do them in a series.
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 126, a bill to 
adjust the number of free-roaming horses within Cape Lookout 
National Seashore.
    The Department is strongly committed to conserving, 
protecting, and maintaining viable populations of horses on 
Shackleford Banks, as Congress has directed. The Department 
believes that the number of horses should be determined by the 
ecology of the island and with a strong focus on means that 
protect the genetic viability of the Shackleford Banks horses.
    This bill adopts the number of horses recommended by 
leading equine geneticists and the Department supports this 
bill with an amendment that incorporates the exact intent of 
these geneticists.
    I would like to move to S. 242. The Department does not 
support S. 242 unless is it amended to authorize a study to 
determine the most appropriate and effective way to establish a 
memorial to honor the brave men and women of the Columbia crew. 
A study is first necessary to provide an opportunity to consult 
with other agencies and organizations to determine what other 
commemorative efforts have been undertaken and to assess the 
alternatives for providing a full measure of appropriate 
commemoration. The study would also look at the various 
alternatives for managing and administering the appropriate 
sites through State, local, and private organizations, as well 
as the National Park Service.
    Congress has established a process that authorizes studies 
before designation of new units in the National Parks Omnibus 
Management Act of 1998, and that process would appear to be 
valuable in determining what range of actions can best be 
crafted to memorialize the spirit and adventure of the space 
program and the men and women who accept the dangers and 
challenges of space flight.
    S. 262. The Department commends the work that is being done 
to restore Angel Island Immigration Station and its important 
story. The National Park Service has been an active partner in 
this worthy project.
    However, the Department opposes this legislation for 
important reasons. We believe it is inappropriate to use 
limited National Park Service appropriations to restore non-
National Park Service structures. Using these limited funds in 
this manner would limit our ability to address priority needs 
in other NPS units, and that has been recognized and emphasized 
by the President's initiative to reduce our deferred 
maintenance backlog.
    The National Park Service has provided significant 
technical assistance, including an historic structure report, 
building condition assessments, and feasibility studies. We 
believe that is the proper role of the National Park Service in 
supporting this effort.
    In sum, we do not believe it is appropriate for the 
National Park Service budget to be used as a major funding 
source for the restoration of the Angel Island Immigration 
Station, a State property.
    Mr. Chairman, S. 336 is a bill to amend the National Trails 
System Act to direct the Secretary to study the feasibility of 
designating the Captain John Smith Chesapeake National Historic 
Watertrail as a National Historic Trail. The Department 
supports S. 336.
    The proposed trail would follow a series of routes 
extending over 3,000 miles along the Chesapeake Bay and its 
tributaries that trace Captain John Smith's voyage from 1607 
through 1609. His explorations recorded significant information 
about the bay and its Native Americans and the Chesapeake 
environment and produced one of the first detailed maps of the 
region, as we previously heard.
    Today the Chesapeake Bay watershed is home to 16 million 
people and the bay is the focus of a very important restoration 
effort by the Chesapeake Bay Program, a partnership effort 
between Virginia, Maryland, Pennsylvania, District of Columbia, 
the Chesapeake Bay Commission, and the Federal Government, as 
represented by EPA.
    The National Park Service coordinates the Chesapeake Bay 
Gateways Network, authorized by the Chesapeake Bay Initiative 
Act of 1998. This partnership system of 147 designated 
Chesapeake Bay Gateways serves to connect the American public 
with the resources and themes of the nationally significant 
Chesapeake Bay.
    Through the Department's existing authority under the 
Chesapeake Bay Gateways Network we could establish a Captain 
John Smith Watertrail. However, to be designated as a National 
Historic Trail under the National Trails Act, an amendment to 
the Act would be required. Congress normally only considers 
such a designation after the completion of a study, as would be 
authorized by S. 336.
    We support this bill as an appropriate step in considering 
the exploration of the Chesapeake Bay by Captain John Smith for 
designation as part of the National Trails System.
    Mr. Chairman, S. 670 is a bill to authorize the Secretary 
of the Interior to conduct a special resource study of sites 
associated with the life of Cesar Chavez and the farm labor 
movement.
    The Department supports this study as a good opportunity to 
work with the Cesar Chavez Foundation and others to identify 
valuable resources associated with the story of Chavez's life. 
Chavez has taken his place in history among national labor 
leaders and serves as a symbol for all Americans of what can be 
accomplished in this country through courage and non-violent 
action.
    The National Park Service has already collaborated with the 
foundation and others in preparing the preliminary assessment 
and scope for future research on-sites associated with Chavez 
and the farm worker movement. This would give us a head start 
on the studies authorized by S. 670.
    Mr. Chairman, S. 777 is a bill to designate Catoctin 
Mountain Park in the State of Maryland as the Catoctin Mountain 
National Recreation Area.
    The Department supports S. 777 with two technical 
corrections added at the end of our official testimony.
    This bill provides a name for Catoctin Mountain Park that 
is appropriate for the purpose and the use of this unit and 
would update the authorization for administering this park. 
This name change would also reduce confusion about the identity 
and activities permitted at Catoctin Mountain Park, 
distinguishing this unit from the local State parks as well as 
the privately owned Catoctin Wildlife Preserve and Zoo. 
Catoctin Mountain Park, with its new name, would become 
recognizable as one of the five National Park System units in 
Frederick County and is supported by the efforts of the 
Maryland Office of Tourism Development to promote this asset.
    S. 777 provides for administration of this unit in accord 
with laws governing the National Park System and ensures that 
the park is able to appropriately administer the park's 
historic, cultural, and natural resources.
    We are currently reviewing previous authorizations for 
Catoctin Mountain Park to determine if any should be repealed. 
We will advise the subcommittee of our findings as soon as 
possible.
    Thank you, Mr. Chairman. I hope I have covered these 
adequately and this concludes my remarks. I would be happy to 
respond to any questions you might have.
    [The prepared statements of Mr. Soukup follow:]

   Prepared Statement of Michael Soukup, Associate Director, Natural 
Resources Stewardship and Science, National Park Service, Department of 
                              the Interior

                              ON H.R. 126
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 126, a bill to adjust the 
number of free-roaming horses within Cape Lookout National Seashore.
    The Department supports H.R. 126, with an amendment regarding the 
population range of the horses that incorporates recommendations from a 
panel of scientists and others interested in the Shackleford Banks. 
This bill passed the House on March 14, 2005. The Department testified 
before the House Subcommittee on National Parks and the Senate 
Subcommittee on National Parks in the 108th Congress in support of an 
identical bill, H.R. 2055.
    The Department is strongly committed to conserving, protecting, and 
maintaining a representative number of horses on the Shackleford Banks 
portion of the Seashore, as Congress has directed. The Department 
believes that the number of horses on Shackleford Banks should be 
determined by the ecology of the island and with a strong focus on 
means that protect the genetic viability of the Shackleford Banks 
horses.
    Without this legislation, NPS would manage this herd consistent 
with P.L. 105-229 that provides for a herd of 100 free-roaming horses.
    H.R. 126 amends P.L. 89-366 by changing the number of free-roaming 
horses at Cape Lookout National Seashore from 100, to not less than 
110, and establishes a target population of between 120 and 130 horses. 
The bill also changes one of the criteria that the Secretary of the 
Interior may use to remove free-roaming horses from the Seashore, 
allowing removal as part of a plan to maintain viability of the herd.
    Congress established Cape Lookout National Seashore (Seashore) on 
March 10, 1966. Encompassing more than 28,000 acres of land and water 
about 3 miles off the mainland coast, the Seashore protects one of the 
few remaining natural barrier island systems in the world with 
excellent opportunities for fishing, shellfishing, hunting, 
beachcombing, hiking, swimming, and camping in a wild and remote 
setting.
    The enabling legislation for the Seashore did not address the issue 
of free-roaming wild horses on Shackleford Banks. Public comments on 
the Seashore's 1982 Draft General Management Plan demonstrated 
widespread concern about, and interest in, the future of the horses on 
Shackleford Banks. The Final General Management Plan stated that, a 
representative number of horses would remain on Shackleford Banks after 
the privately owned land on the island was purchased by the United 
States.
    In 1996, following a series of public meetings, as well as 
discussions with scientists and professional managers of wild horse 
herds, the Seashore developed an Environmental Assessment (EA) with 
alternatives for managing the Shackleford Banks horse herd.
    The plan proposed to maintain a representative herd of horses by 
using a combination of contraceptive drugs and periodic roundups and 
removal of horses.
    On November 11, 1996, the National Park Service (NPS), with 
assistance from state veterinarians from the North Carolina Department 
of Agriculture, initiated a roundup of the Shackleford horses. State 
law required testing the horses for Equine Infectious Anemia (EIA). Out 
of the 184 horses on the island, 76 tested positive for EIA and were 
removed to the mainland for temporary quarantine. On the advice of the 
North Carolina Department of Agriculture, these horses were euthanized.
    In December 1996, the NPS established the Shackleford Banks Horse 
Council, representing a wide variety of interests and stakeholders, as 
a working committee to assist the park with plans for managing horses. 
In 1997, a second roundup and testing program was conducted on the 
Shackleford horses. Of the 103 horses on the island, five tested 
positive for EIA. By this time, the Foundation for Shackleford Horses, 
Inc. had secured a state-approved quarantine site and the five EIA 
positive horses were transferred to it. In the transfer document, the 
Foundation and the Service committed to develop a long-term Memorandum 
of Agreement (MOA) to cooperate in the management of the Shackleford 
Banks horses. On an interim basis, the Service issued a special use 
permit to the Foundation to allow it to assist with the management of 
the herd.
    On August 13, 1998, Congress passed P.L. 105-229, ``An Act To 
Ensure Maintenance of a Herd of Wild Horses in Cape Lookout National 
Seashore.'' This act directed the NPS to maintain a herd of 100 free 
roaming horses and to enter into an agreement with the Foundation for 
Shackleford Horses, Inc. or another qualified nonprofit entity, to 
provide for the management of free-roaming horses in the Seashore. In 
April 1999, a Memorandum of Understanding with the Foundation for 
Shackleford Horses, Inc. was signed.
    P.L. 105-229 requires an annual Findings Report that provides the 
public with information regarding the population, structure, and health 
of the horses on Shackleford Banks. Research, monitoring and record-
keeping, with the goal of informed decisions for removal and 
immunocontraception, is ongoing, as is consultation with 
internationally recognized advisors in the fields of equine behavior, 
genetics, virology, immunocontraception, management, humane issues, and 
island ecology. The NPS continues to work with the Foundation under the 
MOU and management decisions regarding the horses are reached jointly 
with the Foundation and with the advice of scientists.
    On October 29 and 30, 2002, the NPS hosted a roundtable meeting 
with the aim of reaching a consensus on the free-roaming horse 
population range and the strategy for achieving that range. 
Participants included the Seashore Superintendent and staff, staff from 
Representative Jones' office, and representatives from the Foundation 
for Shackleford Horses, Inc. Three leading scientists considered 
experts in their respective fields also participated: Dr. Dan 
Rubenstein of Princeton University, Dr. Gus Cothran of the University 
of Kentucky, and (by telephone) Dr. Jay Kirkpatrick of ZooMontana.
    Included in the discussion was the value of occasional herd 
expansion to maintain genetic variability in the population. The 
conclusion reached was that the population should be allowed to 
fluctuate between 110-130 individuals. The methodology of conducting 
removal and contraception toward this goal was also discussed and 
agreed upon. The range of 110 to 130 horses is based on sound science 
and provides the population changes, which are necessary for 
maintaining the genetic viability of the herd.
    Based upon the October roundtable discussion, we recommend an 
amendment to the bill that is attached to this testimony. We believe 
that this amendment will more clearly reflect the need to allow the 
population bloom necessary for maintaining the genetic viability of the 
herd.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.
Suggested Amendment, H.R. 126:
    On page 2, line 9-10, delete ``with a target population of between 
120 and 130'' and insert, ``allowing periodic population expansion of 
the herd to a maximum of 130 horses''.

                               ON S. 242

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 242, a bill to establish 4 memorials to the 
space shuttle Columbia in the State of Texas.
    The Department does not support S. 242, unless amended to authorize 
a study to determine the most appropriate and effective way to 
establish a memorial to honor the brave men and women on the crew of 
the Columbia. We believe it is critical that National Aeronautics and 
Space Administration (NASA), the crew's family members, and others 
intimately involved in the shuttle mission, disaster, and recovery be 
part of a process to determine what is most appropriate. A study would 
provide this opportunity by including consultation with other agencies 
and organizations, including NASA, to determine what other 
commemorative efforts have been undertaken to memorialize the space 
shuttle Columbia as well as taking into account the wishes and desires 
of the crew's families regarding how they might like their loved ones 
remembered. A study also would look at a variety of alternatives that 
could include National Park Service (NPS) management or could focus on 
administering the site through State or local governments or private 
organizations.
    Because a study can provide these important benefits, a suitability 
and feasibility study typically is conducted prior to designation of a 
new unit of the National Park System. Indeed, Congress established in 
the National Parks Omnibus Management Act of 1998 (P.L. 105-391) a 
process for authorizing studies before the designation of new units. 
Studies of this type typically take approximately three years to 
complete after funds are made available. We currently have 30 other 
similar studies in progress, and we hope to complete and transmit 15 to 
Congress by the end of calendar year 2005. We believe that available 
funding should be first directed toward completing previously 
authorized studies.
    S. 242 would establish units of the National Park System without a 
study first determining whether the proposed units would be suitable 
and feasible additions to the National Park System or whether 
management by the NPS would be the most effective and efficient form of 
commemoration. S. 242 would establish four units of the National Park 
System in the Texas cities of Nacogdoches, Hemphill, Lufkin and San 
Augustine. Large amounts of debris from the Columbia were found on each 
of the four parcels specified in the bill, a combination of public and 
private land, and the Lufkin civic center served as NASA's command 
center for retrieval efforts. The legislation specifies that the 
memorials would be administered by the Secretary of the Interior 
(Secretary) and authorizes the Secretary to recommend additional sites 
in Texas for establishment of memorials to Columbia.
    Columbia, the first space shuttle to orbit the earth, was NASA's 
oldest shuttle. On the morning of February 1, 2003, after a three-week 
mission devoted to scientific and medical experiments, the Columbia 
began its return to earth. As re-entry into the earth's atmosphere 
continued over the Pacific, problems were noticed by NASA, contact with 
the shuttle was lost, and it began to break apart. Debris from the 
shuttle was observed from California to Louisiana, however the remains 
of the seven astronauts and the most significant parts of the shuttle 
were found in several communities across Texas. Soon after the crash, 
an independent accident investigation board was established and the 
first volume of the board's findings was issued in August 2003, 
identifying the factors that led to the shuttle disaster and making 
recommendations for future actions.
    Many memorials and remembrances have been established in honor of 
Columbia's crew, including a memorial at Arlington Cemetery and on 
Devon Island in the Canadian High Arctic. Asteroids have been named for 
members of the crew, as has a highway in Washington and an elementary 
school in California. A memorial is planned at the U.S. Naval Academy 
for Commander William McCool on the cross-country course where he raced 
as a midshipman. On May 12, 2004, NASA dedicated its new ``Altix'' 
supercomputer to the memory of Kalpana ``KC'' Chawla, flight engineer 
and mission specialist on the Columbia.
    If the Committee recommends immediate establishment of these new 
units of the National Park System, we suggest that the bill be 
clarified in several areas. The legislation is unclear whether the 
intent of the bill is to authorize the Secretary to manage a process 
that would produce a commemorative work--such as a plaque, statue, or 
other art that would be located on the properties identified in the 
legislation, or if the bill is authorizing the purchase of these 
properties to be developed as units of the National Park System that 
would then require on-site management, development, and funding. The 
costs for establishing and managing these four areas as units of the 
National Park System would be difficult to determine at this time, but 
they could be expensive given the dispersed sites. These costs could 
best be estimated through the completion of a study.
    Also, the bill does not clearly state a purpose for the memorials. 
In her floor speech introducing the legislation, Senator Hutchison 
spoke about memorializing the spirit and adventure of the space program 
and the men and women who accept the dangers and challenges of 
accomplishing NASA's mission. She also recognized the impact and 
efforts of four Texas communities and citizens that provided support 
and assisted with the collection and identification of debris and the 
remains of the crew. A clear and concise purpose would help guide the 
efforts to meet the legislation's intent.
    NASA and other communities and organizations have already 
established a variety of memorials that recognize the tragedy as well 
as the enduring spirit of the crew and others associated with the final 
voyage of the Columbia. An NPS suitability and feasibility study would 
determine how, or if, this proposal would complement or add to those 
already established memorials.
    Mr. Chairman, that concludes my remarks and I would be happy to 
respond to any questions that you or other members of the subcommittee 
may have.

                               ON S. 262

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
262, to authorize appropriations to the Secretary of the Interior for 
the restoration of the Angel Island Immigration Station in the State of 
California. This legislation would authorize appropriations of $15 
million for restoration of the Angel Island Immigration Station 
Hospital and for other station facilities if excess funds remained.
    The Department commends the work that is being done to restore the 
Angel Island Immigration Station at Angel Island State Park and to make 
it more accessible to visitors. In fact, the National Park Service has 
been an active partner in that effort. However, we oppose this 
legislation. We believe it is inappropriate to use limited National 
Park Service appropriations to pay for restoration projects for non-
National Park Service structures. We encourage the State of California, 
California State Parks, and the Angel Island Immigration Station 
Foundation to continue seeking other sources of funding for this very 
worthy project.
    For many years, the Department has opposed legislation authorizing 
appropriations for non-National Park Service construction projects. 
Many of these projects, like the restoration of the Angel Island 
Immigration Station, represent an important contribution to the 
preservation of our Nation's history. However, each time such 
legislation is enacted and appropriations follow, it further reduces a 
limited amount of discretionary funds available to address the priority 
needs of our national parks and other programs administered by the 
National Park Service. With the emphasis we have placed on the 
President's initiative to reduce the deferred maintenance backlog, it 
has become more important than ever to avoid authorizing funding for 
non-National Park Service projects that would likely draw funds from 
the National Park Service's budget.
    Angel Island is located in San Francisco Bay, not far from Alcatraz 
Island. The Federal government built the Angel Island Immigration 
Station in Winslow Cove and operated it between 1910 and 1940 to 
enforce the Chinese Exclusion Act. Over one million new arrivals to the 
United States, including Russians, Chinese, Japanese, Hispanics, and 
others, were processed through the immigration station, although some 
never set foot on the island.
    The most poignant history associated with Angel Island is that of 
detained Chinese immigrants. Angel Island is often referred to as the 
``Ellis Island of the West,'' although unlike Ellis Island, where 
immigrants typically spent one day, many of the Chinese immigrants were 
detained for weeks, months or even years. The Chinese Exclusion Act, in 
effect from 1882 until 1943, required Chinese immigrants to go to extra 
lengths to prove that they met the necessary requirements to be allowed 
to stay. Over 100 poems carved by detainees on walls of the Detention 
Barracks, expressing the fear, hopes, and despair of those with 
uncertain futures, provide a first-hand historical commentary on the 
plight of these immigrants.
    The immigration station was closed in 1940 after a fire destroyed 
the Administration Building and American policy shifted in support of 
China in World War II. The U.S. Army used the buildings during World 
War II for internment of prisoners. The Army later vacated the site, 
and it fell into disrepair. Angel Island, which also had other military 
installations, was declared surplus to Federal needs and transferred to 
the State of California for park purposes in 1963. Today, on the 13-
acre site, only the Detention Barracks, Hospital, Power House, Pump 
House and Mule Barn remain intact, and only the Detention Barracks is 
open to visitors. Angel Island State Park is reached by ferry and used 
for sightseeing, hiking, picnicking, educational trips, and limited 
camping.
    The Secretary of the Interior designated the Angel Island 
Immigration Station as a National Historic Landmark in 1997. In late 
1998, Congress appropriated $100,000 for the National Park Service to 
evaluate the feasibility and desirability of preserving and 
interpreting sites within Golden Gate National Recreation Area, 
including Angel Island Immigration Station, that are related to 
immigration; we are continuing to work to complete this study. A few 
months later, the National Park Service, California State Parks, and 
the Angel Island Immigration Station Foundation formed a partnership 
consortium to undertake two major projects: (1) develop a restoration 
and interpretation strategy for restoration work at the Angel Island 
Immigration Station, and (2) explore the feasibility of developing a 
Pacific Coast Immigration Museum to provide interpretation and 
education related to immigration and migration to the West Coast. The 
consortium's efforts led to securing $15 million in state funds and $1 
million in grants and donations for restoration work on the immigration 
station.
    The National Park Service has also contributed technical assistance 
and managed contracts for reports that were completed in 2002--a 
Historic Structures Report, Building Condition Assessments, a Poem 
Preservation Study, and Cultural Landscape Report for the immigration 
station. These reports were intended to serve as baseline studies to 
guide preservation and use decisions. In addition, in 2000, the Angel 
Island Immigration Station received a $500,000 grant for conservation 
work through the National Park Service's Save America's Treasures 
program.
    As a follow through on the consortium's agenda, the National Park 
Service has also been the conduit for appropriations from Congress of 
$280,000 in FY 2002 and $385,000 in FY 2004 for in-depth feasibility 
studies for the Pacific Coast Immigration Museum.
    As the activities listed above show, the National Park Service is 
playing an active role in promoting the commemoration of immigration 
history on the West Coast, which is unquestionably a nationally 
significant story, by working in partnership with the State of 
California and the Angel Island Immigration Station Foundation. We are 
proud of the work the Service is doing toward planning and promoting 
the restoration of the immigration station and the Pacific Coast 
Immigration Museum, as these two entities will make an important 
contribution to the understanding of immigration history in this part 
of the country--and they will be significant additions to the 
historical attractions within Golden Gate National Recreation Area. 
However, we do not believe it is appropriate for the National Park 
Service budget to be used as a major funding source for the restoration 
of the Angel Island Immigration Station, a state property.
    Mr. Chairman, that completes my statement. I would be happy to 
answer any questions you or the other members of the committee may 
have.

                               ON S. 336

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 336, 
a bill to amend the National Trails System Act to direct the Secretary 
to study the feasibility of designating the Captain John Smith 
Chesapeake National Historic Watertrail as a National Historic Trail. 
The Department supports S. 366.
    While the Department supports the authorization of this study, we 
also believe that any funding requested should be directed toward 
completing previously authorized studies. Currently, 30 studies are in 
progress, and we hope to complete and transmit 15 to Congress by the 
end of 2005.
    As we approach the 400th anniversary of the Jamestown Settlement 
and the anniversary in 2007 of the beginning of Captain John Smith's 
explorations, the examination of this study is most timely. The 
proposed trail would follow a series of routes extending approximately 
3,000 miles along the Chesapeake Bay and the tributaries of the 
Chesapeake Bay in the States of Virginia, Maryland, Pennsylvania, and 
Delaware and the District of Columbia that trace Captain John Smith's 
voyages charting the land and waterways of the Chesapeake Bay and its 
tributaries.
    S. 336 would require the study to be conducted in consultation with 
Federal, State, regional, and local agencies and representatives of the 
private sector, including entities responsible for administering the 
Chesapeake Bay Gateways Network, coordinated by the National Park 
Service, and the Chesapeake Bay Program, coordinated by the 
Environmental Protection Agency.
    Captain John Smith explored the Chesapeake Bay and its tributaries 
in a series of voyages and travels from 1607 through 1609, while 
executing his company's directives to search for a ``northwest 
passage'' to the Pacific Ocean. Smith's two major voyages occurred in 
the summer of 1608, each leaving from Jamestown, Virginia. Between the 
two voyages, Smith and a small crew traversed the entire length of the 
Chesapeake Bay, explored the shoreline of the lower half of the Eastern 
Shore, and ventured into the major tributaries along the western shore 
of the Bay. Smith had extensive interactions with Native Americans and 
recorded significant information about these peoples and the general 
Chesapeake environment in his book published in 1612. He also made one 
of the first, and most detailed maps of the Chesapeake Bay.
    Four hundred years later, the Chesapeake Bay's basic geography 
remains relatively similar to Smith's time, but much else has changed. 
More than 16 million people live in the Chesapeake Bay watershed, with 
the densest concentrations at locations adjacent to where Smith 
traveled (Washington, DC, Baltimore, MD and the greater Norfolk/Hampton 
Roads area in VA). Human uses of the Bay region have caused significant 
impacts on the Chesapeake environment and the Bay itself.
    Today, the Chesapeake Bay is the focus of a conservation and 
restoration effort led by the Chesapeake Bay Program, authorized under 
the Federal Water Pollution Control Act. The Chesapeake Bay Program, a 
partnership effort of the states of Maryland, Pennsylvania and 
Virginia, the District of Columbia, the Chesapeake Bay Commission, and 
the Federal government (represented by the Environmental Protection 
Agency) coordinates a multi-faceted effort to improve Chesapeake water 
quality and restore habitat for aquatic species.
    As one part of the effort to restore the Chesapeake Bay, the 
National Park Service coordinates the Chesapeake Bay Gateways Network, 
authorized by the Chesapeake Bay Initiative Act of 1998. This 
partnership system of 147 designated Chesapeake Bay Gateways serves to 
connect the American public with the resources and themes of the 
nationally significant Chesapeake Bay. These designated Gateways 
include more than 20 water trails spanning more than 1,500 miles of Bay 
shoreline and tributaries, including a number of the same routes 
traveled by Captain John Smith. Through its coordination of the 
Chesapeake Bay Gateways Network, the National Park Service is also 
authorized to provide technical and financial assistance to Gateways 
for enhancing interpretation, improving public access, and stimulating 
citizen involvement in conservation and restoration efforts.
    Through the Department's existing authority under the Chesapeake 
Bay Gateways Network, we could establish a Captain John Smith 
Chesapeake Water Trail that would follow the routes of Captain Smith's 
travels and would be an effective means of further engaging the 
American public with the vital role of Smith and the overwhelming 
importance of the Chesapeake Bay. Currently, there are 22 water trails 
across four states included within the Chesapeake Bay Gateways Network. 
However, to be designated as a national historic trail under the 
National Trails Act, an amendment to the Act would be required. 
Congress normally only considers such a designation after the 
completion of a study of the proposed trail, which S. 336 would 
authorize. The study would allow a complete examination of the proposed 
trail to determine if it meets the criteria for designation as part of 
the National Trails System. The study is estimated to cost 
approximately $250,000.
    This concludes my prepared testimony, Mr. Chairman. I would be 
pleased to answer any questions you or the committee might have.

                               ON S. 670

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 670, a bill to authorize the 
Secretary of the Interior to conduct a special resource study of sites 
associated with the life of Cesar Estrada Chavez and the farm labor 
movement.
    The Department supports S. 670. We believe that this study will 
provide a good opportunity to work with the Cesar E. Chavez Foundation 
and others to identify valuable resources associated with the story of 
Chavez's life and the movement he led and ways to protect those 
resources.
    While the Department supports the authorization of this study, we 
also believe that any funding requested should be directed toward 
completing previously authorized studies. Currently, 30 studies are in 
progress, and we hope to complete and transmit 15 to Congress by the 
end of 2005.
    Ask historians to name one person who had the greatest impact on 
farm labor, and the name of Cesar Estrada Chavez leaps to mind. Between 
the 1950's and the 1980's Chavez cultivated a life-long commitment to 
bringing respect, dignity, and democracy to the nation's farm workers, 
many of whom were Hispanic. After an initial career as a community 
organizer, Chavez focused his organizing skills on the farm workers, 
inspiring them to look their employers in the eyes, stand up for their 
rights and take active roles in creating their union and wielding its 
power. As a result of his efforts, he continues to serve as a symbol 
not only for Hispanic-Americans, but for all Americans, of what can be 
accomplished in this country through unified, courageous, and 
nonviolent action.
    Chavez's death on April 22, 1993, brought a resurgence of interest 
in his life and work and a new wave of assessments recognizing his 
national and, indeed, international significance. He has taken his 
place among other national labor leaders in the Department of Labor's 
Hall of Fame and been recognized by an ever-increasing number of states 
and communities with special holidays, events, and place names. Because 
of the tremendous impact he had, we believe it is appropriate to study 
sites associated with Cesar Chavez and the farm labor movement he led 
in order to consider ways to preserve and interpret this story of 
enormous social change.
    The National Park Service and the Cesar E. Chavez Foundation first 
discussed the possibility of conducting a national historic landmark 
study of sites related to the work of Chavez and the farm workers' 
movement several years ago, as a way of identifying sites important to 
the history of the man as well as the migrant worker. The Foundation 
represents and fosters the ongoing legacy of Chavez and has a strong 
interest in seeing that heritage preserved. In 2002, the National Park 
Service collaborated with the Foundation and scholars at universities 
in Washington State and California in preparing a preliminary 
assessment and scope for future research on sites associated with 
Chavez and the farm workers' movement. The information gathered through 
that assessment would give the National Park Service a head start on 
the study authorized by S. 670.
    S. 670 would authorize a study of sites in Arizona, California, and 
other States that are significant to the life of Cesar Chavez and the 
farm labor movement in the western United States to determine 
appropriate methods for preserving and interpreting sites. Through this 
study, the National Park Service could examine whether certain sites 
are suitable and feasible for addition to the National Park System. The 
study would be conducted in accordance with the criteria for new area 
studies contained in Title III of the National Parks Omnibus Management 
Act of 1998.
    The study also would consider whether any sites meet the criteria 
for listing on the National Register of Historic Places or for 
designation as a National Historic Landmark. This would enable the 
National Park Service to complete the work that was begun with the 
preliminary assessment described earlier. The legislation specifically 
requires that the National Park Service consult with the Cesar Chavez 
Foundation, the United Farm Workers Union, and other entities involved 
in historic preservation on this study. The study is estimated to cost 
approximately $250,000.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any question you or the other members of the subcommittee may 
have.

                               ON S. 777

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 777, a bill to designate Catoctin 
Mountain Park in the State of Maryland as the ``Catoctin Mountain 
National Recreation Area.''
    The Department supports S. 777 with two technical corrections added 
at the end of the testimony. This legislation would provide a name for 
Catoctin Mountain Park that is appropriate for the purpose and use of 
this unit of the National Park System, and it also would update the 
authorities for administering this park.
    Catoctin Mountain Park had its origins as one of 46 Great 
Depression-era Recreational Demonstration Areas established by the 
Resettlement Administration, which was authorized under the National 
Industrial Recovery Act (1933) and Executive Orders of President 
Franklin D. Roosevelt. The Resettlement Administration acquired and 
developed Recreational Demonstration Areas across the nation to provide 
accessible, low-cost, quality outdoor recreation opportunities. They 
were used for day trips, picnicking, and overnight camping by families, 
social groups, and public organizations.
    Catoctin Recreational Demonstration Area, which comprised 
approximately 20,000 acres, was acquired after the area had sustained 
years of charcoal production, mountain farming, and harvesting of trees 
for timber. The Works Progress Administration and the Civilian 
Conservation Corps administered projects at Catoctin both to put people 
back to work and to establish an outdoor recreation area for the urban 
dwellers of nearby Washington, D.C. and Baltimore, Maryland. 
Jurisdiction over the Catoctin Recreational Demonstration Area was 
transferred to the National Park Service in 1935 by Executive Order.
    In 1942, one of the cabin camps built at Catoctin, Camp Hi-
Catoctin, was selected by President Roosevelt as the Presidential 
Retreat we know today as Camp David. Catoctin's distinctive history 
also includes serving as an O.S.S. training camp during World War II, 
and having the first Job Corps camp in the United States and the 
nation's oldest camp for the disabled.
    In 1954, approximately 4,400 acres of the area was transferred to 
the State of Maryland and became Cunningham Falls State Park. That same 
year, the Director of the National Park Service approved the renaming 
of Catoctin Recreational Demonstration Area as ``Catoctin Mountain 
Park'' and Congress provided authority to exchange lands to consolidate 
holdings in the park. Catoctin Mountain Park is currently 5,810 acres 
in size and has an average annual visitation of 700,000. The park, 
consisting largely of eastern hardwood forest, has many attractions for 
visitors: camping, picnicking, fishing, 25 miles of hiking trails and 
scenic mountain vistas.
    The proximity of Catoctin Mountain Park, Camp David, and Cunningham 
Falls State Park has caused longstanding confusion for visitors to the 
area. Catoctin Mountain Park is continually misunderstood as being 
closed to the public because of the presence of Camp David. Renaming 
the park as a ``national recreation area'' would offer an opportunity 
to reintroduce the park as an area that is open to public recreation. 
The public also has difficulty understanding why there is a difference 
between the activities permitted at Catoctin Mountain Park and those 
permitted at Cunningham Falls State Park. Including the word 
``national'' in the name of Catoctin Mountain Park would facilitate 
efforts to educate the public about these differences and to emphasize 
the value the National Park Service places on protecting cultural and 
natural resources for future generations.
    In addition, the name ``national recreation area'' would also help 
distinguish Catoctin Mountain Park from other local attractions, such 
as the privately-owned Catoctin Wildlife Preserve and Zoo, which are 
often confused with the park. And, the name change would enhance the 
efforts of the Maryland Office of Tourism Development and local tourism 
officials to promote the presence of the five National Park System 
units located in Frederick County, one of which is Catoctin Mountain 
Park.
    In addition to changing the name of the Catoctin Mountain Park, S. 
777 would provide the usual authorities that are included when a new 
unit of the National Park System is established. These provisions will 
make it easier for the National Park Service to administer the unit 
than continuing to rely on the piecemeal authorities that were granted 
since the 1930's. The authorities provided by S. 777 include providing 
for administration of the unit in accordance with laws governing the 
National Park System, and authorizing appropriations for the park. It 
would also formally establish a boundary, which is essentially the 
exiting ownership of the National Park Service, and permit land 
acquisition that would allow for minor boundary adjustments although 
none is contemplated at this time. These provisions will ensure that 
the park is able to continue to appropriately administer the park's 
significant historic resources and important natural areas. The costs 
associated with this legislation would be negligible.
    We are currently reviewing previous authorities for Catoctin 
Mountain Park to determine whether any of them should be repealed in 
conjunction with providing the new authority for the park under S. 777. 
We will advise the subcommittee of our findings as soon as possible.
    Mr. Chairman, this concludes my remarks. I will be happy to answer 
any questions you or the other committee members have.
Proposed amendments to S. 777:
    On page 2, line 6, strike ``in 1952, approximately 5,000'' and 
insert ``in 1954, approximately 4,400''.
    On page 3, lines 10 and 11, strike `` `Catoctin Mountain National 
Recreation Area,' numbered 841/80444, and dated August 14, 2002.'' and 
insert `` `Catoctin Mountain National Recreation Area,' numbered 841/
80444B, and dated April 2005.''

    Senator Thomas. Thank you very much.
    On this last one, Catoctin, now Camp David is there. I 
presume that is clearly a Federal responsibility.
    Mr. Soukup. Yes.
    Senator Thomas. How about the rest of that park? Is it a 
Federal park? Is it a State park? What is its designation now?
    Mr. Soukup. It is a Federal park now. It is operated as a 
Federal park now. It does not have an official boundary. It 
does not have a lot of the attributes that national park 
legislation usually gives it. So it needs this legislation to 
both define it as an administrative unit with the appropriate 
administrative rules, but also to designate the name so that it 
can be distinguishable.
    Senator Thomas. But it is Federal property now.
    Mr. Soukup. Yes.
    Senator Thomas. It is not managed as a park. Is that right?
    Mr. Soukup. It is managed as a park, but it is managed as a 
park with really the uses and the activities that are normally 
associated with a recreation area type of unit within the 
National Park. The name does not really denote that.
    Senator Thomas. Why couldn't the park manage it differently 
if it is already a park?
    Mr. Soukup. Well, it is. It is managing it the way it would 
manage it under the new name change.
    Senator Thomas. So really basically all you are doing is 
changing the name?
    Mr. Soukup. Right. We are not changing the uses or the 
activities or the authorities or the way that we would 
administer land or anything. It is already Federal land. It is 
really a name change.
    Senator Thomas. On this S. 670, conduct a resource study. 
What would they be if you find that they are significant?
    Mr. Soukup. Well, that is what a study would determine. 
There are a number of sites that are important to the farm 
workers movement and to the life of Chavez. A study would look 
at the alternatives. First, it would determine what are the 
important resources out there and look at the alternatives for 
developing something that would really reflect the life of 
Chavez and the farm workers movement and then assess the 
alternatives. Who should manage it? What sites would be 
appropriate? What would be the optimal approach to----
    Senator Thomas. Do you see it as museums or historic 
collections? You are not going to say here is a field where 
Chavez worked or something like that, are you?
    Mr. Soukup. It could be any number of combinations. It 
could be sites where protests were made. It could be sites that 
are important gatherings, that kind of thing.
    Senator Thomas. But it is a study to determine.
    Mr. Soukup. It is simply a study that looks into the whole 
range of possibilities, and I am sure there are quite a range 
of possibilities.
    Senator Thomas. I understand.
    S. 336 would name it a watertrail. We do not have any 
watertrails now?
    Mr. Soukup. Actually we do. We have a number of 
watertrails. I think I have a list of them here somewhere.
    Senator Thomas. Well, that is all right. I just did not 
know whether this was a brand new designation or whether we 
already had----
    Mr. Soukup. There are a number of trails within the 
National Trail System that have watertrails as part of that. So 
there are some.
    Senator Thomas. And they are named watertrails?
    Mr. Soukup. Yes.
    Senator Thomas. Okay.
    Mr. Soukup. There is one in Virgin Islands National Park 
that has a watertrail that we manage. Some wild and scenic 
rivers, parts of the National Park System contain miles of 
watertrails. We administer two trails that traverse both water 
and land. The Lewis and Clark National Historic Trail has 
sections of watertrails in it. The Trail of Tears National 
Historic Trail would be another.
    Senator Thomas. All right. Thank you. I did not know if 
that was a new idea.
    In this S. 262, the Angel Island Immigration Station, there 
is no national involvement there now at all.
    Mr. Soukup. Well, there has been a fair amount of national 
involvement from the Park Service and other players. We have 
been really in the role of technical assistance. We have also 
provided some grants and some restoration project money, but 
those have been more in the lines of technical assistance.
    Senator Thomas. If this passed, would it change the 
designation, or is it simply a money thing?
    Mr. Soukup. I understand it is largely a pass-through of 
money. It does not change the designation or the ownership.
    Senator Thomas. Thank you.
    And the horse adjustment is because the numbers are in the 
current legislation.
    Mr. Soukup. The current legislation has numbers which are 
not quite in sync with what the geneticists are telling us.
    Senator Thomas. So basically what it does is it raises the 
allowable number of horses.
    Mr. Soukup. Right. It corrects the number to allow for 
population blooms up to 130 horses as a max, and that has an 
advantage for genetic viability over the long term.
    Senator Thomas. Let us see. I was going to ask you 
something on this Chesapeake Bay. Then what you would basically 
be doing is amending the existing Trails Act to include this 
facility.
    Mr. Soukup. Yes. It would be an amendment that would make 
this an official national trail.
    Senator Thomas. All right. Thank you very much, sir. I 
appreciate it. We will look forward to your studies and so on.
    Let us see now. Felicia Lowe, vice president, Angel Island 
Immigration Station Board, please, and Patrick Noonan, chairman 
emeritus, The Conservation Fund, Arlington, Virginia.
    Senator Feinstein asked me to say that she welcomes Felicia 
Lowe from San Francisco and greatly regrets that she cannot 
make the meeting. She also asks that her statement be inserted 
into the record. So her statement will be inserted, and on 
behalf of her, you are welcomed.
    [The prepared statement of Senator Feinstein follows:]

       Prepared Statement of Hon. Dianne Feinstein, U.S. Senator 
                       From California, on S. 262

    I would like to welcome a witness from my hometown of San 
Francisco, Felicia Lowe, the Vice President of the Board of the Angel 
Island Immigration Station Foundation. Felicia, I am proud to sponsor 
this legislation that you are supporting today to restore the Angel 
Island Immigration Station.
    It is hard to think of a more American story than that of hard-
working immigrants, risking travel to a foreign land to make a better 
life for their families.
    The federal government has dedicated its resources to commemorate 
the eastern gateway for this county, Ellis Island.
    It is time to make an equal commitment to our Western port of 
entry, Angel Island. Mr. Chairman, I understand that the old hospital 
structure that this bill would protect is on the verge of literally 
falling down. In 2000, the Immigration Station was placed on 
``America's 11 Most Endangered Historic Places'' list.
    The State of California and the local community have banded 
together to save this site. We as the federal government should help.
    I look forward to the day when the descendants of the one million 
immigrants who came through Angel Island, including approximately 
175,000 Chinese-Americans, can revisit the spot where their ancestors 
made such great sacrifices for them.
    There are few more intimate and personal reminders of our history 
as immigrants than the poems carved on the walls of the Detention 
Barracks by those who awaited word on whether they would be admitted 
into this country.
    Mr. Chairman, it's an accident of circumstance that we don't have 
many monuments to early generations of Chinese-Americans. I can't think 
of a better place to start to remedy this situation than Angel Island. 
I hope you will. support this bill.
    Thank you.

 STATEMENT OF FELICIA LOWE, VICE PRESIDENT OF THE BOARD, ANGEL 
    ISLAND IMMIGRATION STATION FOUNDATION, SAN FRANCISCO, CA

    Ms. Lowe. Thank you very much, Chairman Thomas, Senator 
Akaka, and members of the Subcommittee on National Parks for 
this opportunity to speak to you about S. 262, the Angel Island 
Immigration Station Restoration and Preservation Act.
    On behalf of the Angel Island Immigration Station 
Foundation, I did want to thank Senator Feinstein for her 
leadership and for introducing this legislation and again for 
Senator Akaka's continuing support for our project.
    I am Felicia Lowe. I am vice president of the board of the 
Angel Island Immigration Station Foundation. I am a producer of 
a documentary called Carved in Silence and I am a descendent of 
immigrants detained at Angel Island. Both my grandfather and my 
father were held there. This I learned after their deaths 
because the ordeal was never discussed.
    The foundation is the nonprofit partner of the California 
State Parks and the National Park Service. We have been 
actively working together toward the goal of preserving and 
restoring the National Historic Landmark since 1997.
    Angel Island Immigration Station is the Ellis Island of the 
West, with a twist. It was built to enforce the Chinese 
Exclusion Act, a series of Federal legislation designed to bar 
Chinese laborers from entering the United States from 1882 
until 1943. And it also prevented Chinese from becoming 
naturalized citizens. It was the first and only time in the 
history of America that Congress passed legislation that 
restricted immigrants solely on the basis of race.
    Just as my father kept his Angel Island experience from me, 
few Americans have even heard of the immigration station 
located in the middle of San Francisco Bay and in the footprint 
of the Golden Gate National Recreation Area. Its role in 
immigration history is virtually unknown, a dramatic contrast 
to the stories of Ellis Island.
    The immigration at Angel Island served as the guardian of 
the western gate, enforcing these racially restrictive Federal 
immigration laws, detaining immigrants for weeks, months, and 
even years to ensure that they fit a narrow definition of the 
exempt class. My father was held there for 3 weeks.
    In operation from 1910 to 1940, a million immigrants from 
around the world had their papers processed through this 
station. They included Japanese, Punjabi, Filipino, and Russian 
immigrants.
    However, Angel Island's greatest significance is tied to 
the story of the estimated 175,000 Chinese immigrants who 
risked everything to come to Gold Mountain. Anguish and 
uncertainty led some of them to write or carve poetry on the 
walls of the detention barracks. Today more than 100 of these 
poems are still visible at the island, capturing the voices of 
the immigrants in that time and place and serving as a physical 
and emotional testament that resonates with all Americans who 
share a history of immigration.
    It has been 50 years since the last active use of the 
immigration station. Of the original structures, only the 
detention barracks, hospital, power house, pump house, and mule 
barn remain.
    A master plan for the site has now been completed, calling 
for five phases of site restoration. The first phase of the 
master plan to rehabilitate the detention barracks and its rare 
poems is being funded by nearly $18.5 million in State money, 
plus the $500,000 Save America's Treasures grant awarded by the 
Department of the Interior. This represents roughly a third of 
the entire cost of the core project, which is expected to be 
$50 million.
    Further, we have engaged Signature Philanthropy, the 
principal fund raisers for Ellis Island, to assist us in a 
national campaign to raise $15 million in private funds. That 
would take us two-thirds of the way to this dream.
    Your support of S. 262 allows up to $15 million toward the 
preservation and restoration of the hospital building, the 
second most important structure on the site. As you can see in 
the blow-up, it is deteriorating rapidly. Imagine instead a 
world-class immigration museum, an education and family 
genealogical research center, digital access to National 
Archive records, in short a true bookend to Ellis Island.
    While Angel Island Immigration Station represents a 
difficult chapter in our national history, it is ultimately a 
story of the triumph and the perseverance of immigrants who 
endured and established new lives in this country. Angel Island 
Immigration Station is of national significance, and at the 
time of its operation, it was a Federal agency enforcing 
Federal laws. Only through our collective efforts will we make 
this a reality.
    Thank you to the members of the subcommittee for holding 
this hearing today. We hope that you will support our efforts 
to restore and preserve Angel Island Immigration Station by 
passing S. 262. In doing so, generations can come to appreciate 
this very unique site.
    I thank you for the opportunity to testify today and I 
welcome any questions you might have at this time.
    [The prepared statement of Ms. Lowe follows:]

Prepared Statement of Felicia Lowe, Vice President of the Board, Angel 
  Island Immigration Station Foundation, San Francisco, CA, on S. 262

                              INTRODUCTION

    Thank you, Chairman Thomas, Senator Akaka and members of the 
Subcommittee on National Parks, for this opportunity to speak to you in 
support of S. 262, The Angel Island Immigration Station Restoration and 
Preservation Act.
    I am Felicia Lowe, Vice-President of the Board of the Angel Island 
Immigration Station Foundation (AIISF) and a descendent of immigrants 
detained at Angel Island. AIISF is the non-profit partner of California 
State Parks and the National Park Service working together to preserve 
this historic U.S. Immigration Station in San Francisco Bay.
    On behalf of the Angel Island Immigration Station Foundation and 
Americans descended from Angel Island immigrants like myself, I thank 
you for holding a hearing on this important legislation. We also wish 
to thank Senator Feinstein for her leadership in introducing this 
legislation and Senators Akaka, Inouye and Boxer for co-sponsoring this 
legislation.
    In the House, our heartfelt thanks go to Representatives Woolsey 
and Souder for their leadership. During the 108th Congress, the U.S. 
House of Representatives held two hearings on the Immigration Station 
and passed their authorization legislation unanimously with bipartisan 
support.
    S. 262, the Angel Island Immigration Station Restoration and 
Preservation Act authorizes up to $15 million in federal funds to save 
the ``Ellis Island of the West.'' The legislation also limits federal 
funding to 50 percent of the total funds from all sources spent to 
restore the Immigration Station. We urge you to approve this 
legislation to be enacted into law this Congress.
    Our nation offers a history of great diversity, one that matches 
the wealth of experiences in our rich heritage. So many of these 
stories, however, have gone untold. Angel Island Immigration Station is 
one example of a hidden history now coming to light and enriching the 
understanding of our nation in both historic and contemporary times.
    The immigration experience is a common thread binding the histories 
of most Americans. Whether escaping persecution, poverty, or lack of 
economic prospects, immigrants have come to this nation for the ideals 
it represents--freedom, democracy, and opportunity.
    Angel Island is the ``Ellis Island of the West''. with a twist. 
Most Americans know the story of Ellis Island, which processed millions 
of immigrants crossing the Atlantic, but the story of Angel Island 
remains virtually unknown. It too, was a federally owned site enforcing 
federal legislation. Located in the middle of San Francisco Bay, within 
the footprint of the Golden Gate National Recreation Area (GGNRA), 
Angel Island Immigration Station was routinely the first stop for most 
immigrants crossing the Pacific Ocean. Between 1910 and 1940, a million 
immigrants from around the world came through this station; they 
included Japanese, Punjabi, Korean, Filipino, and Russian immigrants.
    Angel Island's greatest significance is tied to the story of the 
estimated 175,000 Chinese immigrants who risked everything to travel to 
``gam san,'' or ``Gold Mountain'' during a period in which the Chinese 
Exclusion Acts were enforced. It was the first and only time in 
American history that a specific ethnic group was barred entry solely 
on the basis of race. Processing new immigrants at Ellis Island took 5 
to 6 hours. At Angel Island, Chinese immigrants were detained for two 
to three weeks, and often several months. A few were even forced to 
remain on the island for nearly two years.
    With such long stays, some wrote or carved poetry on the walls of 
the detention barracks. Today, more than 100 of these poems are still 
visible at Angel Island Immigration Station, capturing the voices of 
the immigrants in that time and place, and serving as a physical and 
emotional testament that resonates with all Americans who share a 
history of immigration.

               CURRENT STATUS OF THE IMMIGRATION STATION

    Angel Island Immigration Station closed in 1940, after a fire 
destroyed the Administration Building. The remaining detainees were 
moved to San Francisco. The Chinese Exclusion Act was repealed in 1943, 
when China became America's ally in World War II. The Immigration 
Station site and buildings were transferred to the U.S. Army, which 
quickly adapted the site to temporarily detain prisoners of war and to 
house enlisted soldiers. The Army built mess halls, additional barracks 
and guard towers on the site.
    When the Army vacated Angel Island, the structures fell into 
disrepair. Of the original Immigration Station structures, only the 
Detention Barracks, Hospital, Power House, Pump House and Mule Barn 
remain.
    Angel Island Immigration Station is a part of Angel Island State 
Park, owned and operated by the California State Parks system which 
took over operations from the National Parks Service in 1963. From the 
inception of the restoration and preservation planning, the National 
Park Service has participated as a full partner. In the early 1980's, 
limited restoration efforts by community members allowed the first 
floor of the Detention Barracks to be opened to the public and some of 
the poetry to be viewed. The site is a popular destination for school 
field trips, with more than 30,000 students and their teachers visiting 
it each year.

                         PRESERVING THE LEGACY

    It has been 50 years since the last active use of Angel Island 
Immigration Station. The buildings and the poems that were carved on 
the walls of the detention barracks have been battered by time and the 
elements. To protect these historical treasures, the Angel Island 
Immigration Station Foundation (AIISF) has worked tirelessly to raise 
awareness and dollars to preserve the site and its history. Our goal, 
in partnership with California State Parks and the National Park 
Service is the creation of a world-class visitor and genealogical 
research center to ensure that the story of Pacific coast immigration 
can be told for generations to come, a bookend to Ellis Island. AIISF's 
achievements include:

  <bullet> Designation of the site as a National Historic Landmark in 
        1997.
  <bullet> In 1998, Senator Daniel Akaka proposed and Congress approved 
        $100,000 to conduct a study to determine the feasibility and 
        desirability of preserving and interpreting sites within the 
        Golden Gate National Recreational Area (GGNRA) that relate to 
        immigration and the peopling of the nation, which included 
        Angel Island Immigration Station.
  <bullet> In 1999, designated as one of ``America's 11 Most Endangered 
        Historic Places''.
  <bullet> In 1999, placement of a $400,000 earmark in the state 
        budget.
  <bullet> In 2000, passage of a $15 million bond approved by 
        California voters for the restoration.
  <bullet> In 2000, U.S. Department of Interior, National Park Service 
        awarded a ``Save America's Treasures'' grant of $500,000.
  <bullet> In 2004, United States House of Representatives pass of H.R. 
        4469, the Angel Island Immigration Restoration and Preservation 
        Act.
  <bullet> In 2005, the California Cultural and Historical Endowment 
        awarded $3 million for preservation and restoration efforts.
  <bullet> In 2005, AIISF is launching a national capital campaign 
        aimed at individual, corporate, private foundation giving to 
        supplement governmental funds towards the preservation of the 
        Immigration Station. The expertise of Signature Philanthropy 
        which raised funds for the restoration of Ellis Island and the 
        Statue of Liberty has been retained for this effort.

    Over the past few years, AIISF and its preservation partners, the 
California State Parks and the National Park Service, have conducted 
approximately $500,000 worth of historic preservation studies with 
funds raised from private, state and federal sources. A master plan for 
the site has now been completed, calling for five phases of restoration 
for the historic Immigration Station. The first phase of the master 
plan is being funded by $15 million in state bond funds and a $500,000 
Save America's Treasures grant. The core project is expected to cost 
$50 million.

                              FEDERAL ROLE

    Like Ellis Island, Angel Island's history and legacy is important 
to all Americans, not just Californians. Nearly $18.5 million of scarce 
state funds have been raised to date to support the preservation 
project. The addition of federal dollars serves to endorse the national 
importance of Angel Island Immigration Station's history, one which 
differs significantly from Ellis Island, yet offers equally important 
and inspiring lessons. Angel Island is more than a set of buildings, 
the ``walls talk'' at this site which was built to enforce federal laws 
and was operated by a federal agency throughout its period of 
significance.
    We strongly believe this National Historic Landmark which resides 
within the footprint of the Golden Gate National Recreational Area 
(GGNRA) elevates it to a level deserving of federal appropriations 
dollars. In order to be eligible, we need your support of S. 262 which 
allows up to $15 million towards the preservation and restoration of 
Angel Island Immigration Station--the Ellis Island of the West.
    Just as Ellis Island immigrants arriving from across the Atlantic 
Ocean profoundly changed our country, so too did Angel Island 
immigrants who crossed the Pacific. Angel Island immigrants played a 
vital role in the development of the American West, and the peopling 
and prosperity of our nation. Chinese immigrants were pioneers in the 
agricultural and fishing industries of the West. They reclaimed the 
Sacramento and San Joaquin deltas by constructing networks of 
irrigation canals and constructing miles of dikes and ditches. In doing 
so, they played a lead role in transforming California into the 
nation's leading agricultural state. These immigrants and their 
descendants helped create the vibrant palette of ethnic cultures that 
first painted the American West and whose impact is now felt throughout 
the nation.
    The precious poems carved on the walls of the Detention Barracks 
serve as a physical touchstone and testimony of the experiences of 
immigrants who crossed the Pacific Ocean. Their experiences are further 
enlightened by transcripts of their interrogations that are currently 
stored at the National Archives and Records Administration (NARA) in 
San Bruno, California.
    Digital access to NARA and other immigration records will be an 
integral part of a Pacific Coast Immigration Museum, education and 
family history/genealogy center housed in the Immigration Station's 
Hospital building. Unfortunately, the hospital building is 
deteriorating rapidly and each winter the structure faces an uncertain 
survival. Timely funding to stabilize and restore the building is 
desperately required to prevent further deterioration.

                          BUILDING THE FUTURE

    The enduring value of Angel Island Immigration Station lies in the 
lessons that its past can teach us about our present and our future. 
Immigration is a national story, one which gets to the very heart of 
the American identity--"Who is an American?'' and ``Who is included or 
excluded and how has that changed over time?'' While Angel Island 
Immigration Station represents a difficult chapter in our national 
history, it is ultimately, a story of the triumph and the perseverance 
of immigrants who endured and established new lives in this country. 
Angel Island and Ellis Island serve as bookends, not only in geography, 
but also in meaning and experience.
    The restoration of Angel Island Immigration Station is a prime 
example of how everyday Americans can work together with private, State 
and Federal partners to preserve an important, yet little known chapter 
of our national story. Collaboration is the only way to make this a 
reality. We need a West Coast counterpart to Ellis Island to reflect a 
uniquely American, yet universal story of immigration.
    Thank you, the members of this subcommittee for your understanding 
of the importance of this project. I urge you and your fellow members 
of Congress to work to restore and preserve Angel Island Immigration 
Station. In doing so, generations to come can appreciate this site, a 
symbol of the perseverance of the immigrant spirit and the diversity of 
this great nation. We ask for your support of S. 262, the Angel Island 
Restoration and Preservation Act.

                   Attachment--Historical Background

                       THE CHINESE EXCLUSION ACT

    Political chaos and economic struggles plagued China throughout the 
19th and 20th centuries, prompting many to leave in search of 
opportunities in America. California, with its news of gold in 1848, 
and the building of the transcontinental railroad in the 1860s, offered 
dreams of survival and prosperity. By the late 1870s, however, America 
found itself in economic turmoil, and many blamed Chinese labor for the 
depression.
    In 1882, Congress passed the first Chinese Exclusion Act, 
prohibiting Chinese laborers from immigrating, and denying citizenship 
to foreign-born Chinese. This act marked the first time any group of 
laborers was denied entry to the United States solely on the basis of 
race. Other exclusionary laws followed that profoundly affected all 
Asian immigration until the repeal of the Chinese Exclusion Act in 
1943.
    However, the Act did not stop the Chinese and other Asians from 
coming to America. Many young men, desperate for a better life in 
America, developed ways to circumvent a system they felt had unfairly 
targeted them. They came as ``paper sons'', claiming to be related to a 
legal resident or another family legally entering the country.
    But, the burden of proof fell squarely on the shoulders of every 
Chinese immigrant brought to Angel Island Immigration Station.

                    LIFE AT THE IMMIGRATION STATION

    Isolated as Angel Island was, immigration officials regarded the 
location as ideal--communication was limited, quarantine was possible, 
and escape was unlikely. About 250 to 350 people were usually housed in 
the barracks at one time. Immigration officials separated men and 
women, and also segregated Chinese, Japanese, Korean and European 
immigrants from one another.
    New arrivals to the Immigration Station underwent a medical 
examination. Unfamiliar with the language, customs, and Western medical 
procedures, the examination was often characterized by newcomers as 
humiliating and barbaric.
    After the physical examinations, the entry hearing was the most 
critical hurdle. Hearings often lasted two to three days, with 
inspectors interrogating applicants about the smallest details of their 
house, village, or family. A family member of the applicant was also 
interrogated to confirm the applicant's answers.
    Passing the interrogation was no simple task. Failure could mean 
deportation. The last resort was an appeal to a higher court and an 
indefinite stay on Angel Island while awaiting a decision. Inspectors 
presiding over each case had wide discretionary power in determining 
the fate of each applicant.
    Questions typically asked included:

  <bullet> What is your living room floor made of?
  <bullet> Where is the rice bin kept?
  <bullet> Where is your village's temple?
  <bullet> What are the names of the neighbors who live in your village 
        and what are their occupations?
  <bullet> What direction does your home in China face?
  <bullet> How many windows does your house in China have?

                                 POEMS

    For Chinese immigrants detained on Angel Island, weeks easily 
passed into months and in some cases, nearly two years. Anxiety, 
depression and fear were expressed through poetry written or carved 
into the barrack walls. Today, more than 100 of these poems are still 
visible at Angel Island Immigration Station, capturing the voices of 
the immigrants in that time and place, and serving as a physical and 
emotional testament that resonates with all Americans who share a 
history of immigration.

        Imprisoned in the wooden building day after day,
        My freedom withheld; how can I bear to talk about it?
        I look to see who is happy but they only sit quietly.
        I am anxious and depressed and cannot fall asleep.
        The days are long and the bottle constantly empty;
        my sad mood, even so, is not dispelled.
        Nights are long and the pillow cold; who can pity my 
        loneliness?
        After experiencing such loneliness and sorrow,
        Why not just return home and learn to plow the fields?

 A poem from the walls of Angel Island Immigration Station,
                                            author and date unknown

    Senator Thomas. Thank you very much. Mr. Noonan.

   STATEMENT OF PATRICK F. NOONAN, CHAIRMAN EMERITUS OF THE 
                CONSERVATION FUND, ARLINGTON, VA

    Mr. Noonan. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to be with you this afternoon in 
support of S. 336, the Captain John Smith Chesapeake National 
Historic Watertrail Study Act of 2005. I am Patrick F. Noonan, 
chairman emeritus and founder of The Conservation Fund. It has 
been my privilege for the past 30 years to work to conserve the 
great natural and historic treasures of this country, including 
sites such as Antietam and Gettysburg, the Flight 93 Memorial, 
and sites along the Lewis and Clark Trail.
    I strongly support S. 336 to study the feasibility and 
desirability of designating the route of John Smith's voyages 
of exploration as a National Historic Trail. I would like to 
thank Senators Sarbanes, Allen, Mikulski, Warner, and Biden for 
their leadership and the Bush administration for support of 
this bill. I am particularly thankful as a child of the 
Chesapeake, having lived near its shores for my entire life.
    This proposal comes from the Chesapeake communities who are 
now preparing to celebrate the 400th anniversary of Jamestown. 
They embrace the concept of the John Smith Watertrail for they 
see it as an economic opportunity for tourism and historic 
growth.
    Because of the national, historic, cultural, and economic 
importance of this area, and because of John Smith's 
explorations of the bay, I urge support for the bill. 
Importantly, supporters include the Chesapeake Bay Commission, 
consisting of State legislators from Maryland, Virginia, and 
Pennsylvania, unanimous support from the Chesapeake Executive 
Council, the Governors of Maryland, Virginia, Pennsylvania, and 
the mayor of Washington, DC, along with the Governor of 
Delaware, and finally from economic development officers from 
those States and from local governments.
    Mr. Chairman, I would like to introduce some background 
materials for the record, including letters of support and 
historic information, which we have provided to you.
    Senator Thomas. They will be included.
    Mr. Noonan. Thank you.
    Captain Smith's exploration of the Chesapeake Bay was a 
monumental historic achievement shaping the boundaries of this 
country just as did Lewis and Clark. He and his crew of just 
over a dozen men courageously traveled some 3,000 miles from 
the capes of Virginia to the mouth of the Susquehanna River. 
His 1612 map, which we have here, is remarkably accurate and 
served as a definitive map for the first 200 years of this 
Nation as a guidepost. It is now being replicated by the 
National Geographic Society for distribution to school children 
throughout the watershed in celebration of its 400th 
anniversary.
    He saw a Chesapeake Bay with abundant resources and 
thriving Native American cultures along the shores of what is 
now today Maryland, Virginia, the District, Pennsylvania, and 
Delaware, and he described the Chesapeake best when he said 
``heaven and earth never formed a more perfect place for man's 
habitation.''
    Smith personified the chance for a better life, the chance 
that would become the American dream of millions of immigrants 
who would later benefit from his daring. He was raised on a 
farm in rural England, became a soldier, and was not a part of 
England's upper class. Arriving in Jamestown as a soldier, he 
later became president and was able to provide leadership in 
those difficult times. The impact of Smith's voyages on the 
American Indians is a critical element of the story and one to 
be told as part of this study. Yes, Smith is a proud part of 
the region's rich maritime and cultural heritage. And the 
working landscape of today would be celebrated by a study of 
the trail. We believe the Chesapeake is an American treasure 
and certainly warrants this study.
    In conclusion, Mr. Chairman, the adoption of this bill is 
important for four compelling reasons: first, the national 
historic importance of Smith's voyages and the Jamestown 
settlement; second, the unparalleled natural treasures of the 
Chesapeake; third, and very importantly, the economic 
opportunities of the trail are multiple, the celebration of the 
working landscape, the opportunities for historic tourism, and 
importantly, the opportunities for enhanced recreation. And 
finally and maybe most important are the educational 
opportunities of the trail, for this would surely be an 
inspiration to American children and a way for them to learn 
about history and the birthplace of American democracy. It is a 
story to be told for future generations.
    Mr. Chairman and members of the subcommittee, it is my hope 
that future generations will praise our foresight in 
considering this bill. We urge your favorable consideration. 
Thank you and I am pleased to answer any questions you may 
have.
    [The prepared statement of Mr. Noonan follows:]

     Prepared Statement of Patrick F. Noonan, Chairman Emeritus of 
                    The Conservation Fund, on S. 336

    Mr. Chairman, and members of the Committee, thank you for the 
opportunity to testify today on S. 336, the ``Captain John Smith 
Chesapeake National Historic Watertrail Study Act of 2005.'' I am 
Patrick F. Noonan, Chairman Emeritus and founder of The Conservation 
Fund--an organization dedicated to preserving historic, natural and 
working landscapes. In addition, The Conservation Fund promotes 
economic development through tourism, education and community-based 
initiatives.
    I wish to express my support for this bipartisan legislation that 
authorizes the National Park Service (NPS) to study the feasibility and 
desirability of designating the route of Captain John Smith's voyages 
of exploration as a National Historic Trail. Specifically, S. 336 
directs the NPS to study the voyages' historic significance, national 
significance and potential for recreational use and historic 
interpretation. I would like to thank Senators Sarbanes, Allen, Warner 
and Mikulski for their leadership and crucial support on this issue.
    For over thirty years, I have worked to protect America's great 
treasures, such as historic lands, wildlife refuges and parks, and 
working landscapes by forming partnerships among private landowners, 
major corporations, and state and federal agencies. These historic 
treasures include Civil War battlefields such as Antietam National 
Battlefield, the Flight 93 National Memorial, and sites along the Lewis 
and Clark National Historic Trail. The Chesapeake is particularly 
special to me because I am a ``child of the Chesapeake'' and have lived 
near its shores for my entire life. I can tell you that this proposal 
comes from the people of the Chesapeake. Local governments and 
grassroots organizations have embraced the idea of a John Smith 
watertrail and support the study. Because of the historic, cultural, 
and economic importance of Captain John Smith's explorations of the 
Chesapeake Bay I urge your support for the bill.

           CELEBRATING THE AMERICAN DREAM--CAPTAIN JOHN SMITH

    The year 2007 marks the 400th anniversary of the founding of 
Jamestown, the first permanent American settlement, and of Captain John 
Smith's arrival in the New World. As the eve of Jamestown's founding 
approaches, it is important to study the national significance of 
Smith's voyages and the feasibility of establishing a water trail that 
celebrates his explorations. I believe that John Smith's voyages are on 
par with Lewis and Clark's Corps of Discovery and their exploration of 
interior North America. By recognizing John Smith's leadership, we can 
inspire generations of Americans and overseas visitors to follow 
Smith's journeys, to better understand the contributions of the Native 
Americans who lived within the Bay region and to learn about the roots 
of American democracy.
    Captain John Smith's exploration of Chesapeake Bay was a monumental 
historic achievement, shaping the boundaries, character and future of 
America. Smith and his crew of just over a dozen men courageously 
traveled almost 3,000 miles along the Bay exploring a vast region from 
the Virginia capes to the mouth of the Susquehanna River near 
Pennsylvania. He saw a Chesapeake Bay with its incredible, productive 
ecosystem intact and with sophisticated and diverse Native American 
cultures thriving along the shores of what is known today as Maryland, 
Virginia, Washington, DC, Pennsylvania and Delaware. A study of the 
Capt. John Smith Chesapeake National Watertrail would allow us to 
explore the idea of celebrating Smith's voyages that opened the door of 
opportunity to establish our democratic forms of government for all 
Americans.\1\
---------------------------------------------------------------------------
    \1\ For more information, see Love and Hate in Jamestown: John 
Smith, Pocohontas, and the Heart of a New Nation by David A. Price, 
published in 2003.
---------------------------------------------------------------------------
    During his years in the Jamestown colony, Smith explored the 
Chesapeake Bay searching for the fabled Northwest Passage. His 
exploration marked the territory, which would eventually become the 
State of Maryland, the Commonwealth of Virginia and the State of 
Delaware. Smith's 1612 map was the first accurate depiction of the 
Chesapeake Bay and the native settlements present. For nearly a 
century, the map served as the definitive map of the region, including 
areas documented entirely with information supplied by Native 
Americans. By providing accurate information, this map enabled the 
colonization of the East Coast by the English.
    On his voyages and as President of the Jamestown Colony, Captain 
Smith became the point of first contact for scores of Native American 
leaders from around the Chesapeake. His notes describing the indigenous 
people he met in the Chesapeake are still widely studied by historians, 
anthropologists and scientists. The impact of Smith's voyages on the 
American Indians is a critical element of the story. Smith commonly 
formed partnerships with the many different tribes by building an 
economic relationship based on trade. The supplies he obtained through 
trade with American Indians are credited with saving the Jamestown 
colony, during its early years. The historic meeting between colonists 
and Americans Indians profoundly impacted both cultures and changed the 
course of history. These early interactions between the ambassadors of 
both peoples were in many ways a significant prelude for events to 
come.
    As chronicled in his journals, Smith's voyages in America ignited 
the imagination of the Old World. He produced many books and his 
writing inspired hundreds, and then thousands of people to settle in 
the ``dense woods and fertile valleys'' of the Chesapeake. His 
adventurous spirit, descriptive writing, and accurate mapping all serve 
to bolster his place in history. A man of humble birth, he was a 
captivating individual that played a crucial role in our country's 
history. The watertrail provides a practical opportunity for the 
outdoor enthusiast as well as the historian to get a taste of his 
Smith's spirit by traveling the same route he did nearly 400 years ago.
    In many ways, Captain John Smith personified the chance for a 
better life that would become the American dream for the millions of 
immigrants who would later benefit from his daring. The son of a farmer 
in Lincolnshire, England, Smith left his home to seek adventure and 
fortune in the wider world. Although he was not part of England's upper 
class, he became President of the Jamestown Colony as an agent of the 
London-based Virginia Company, one of the first ``venture capital'' 
enterprises. Smith demonstrated that America was a different place, 
where success was achieved through hard work, not necessarily nobility. 
He helped set the foundation for America's philosophy of equality 
through his famous ``Don't work, don't eat'' policy. Smith focused on 
skills and talents, not titles, setting an egalitarian outlook that has 
echoes in America to this date.
    Smith was a bold leader who defied the odds and ignited a nation. 
His contemporaries gave him the credit for having supplied the firm 
hand and commonsense that saved the Jamestown colony during its early 
struggles with starvation and disease. If not for his leadership, the 
colony would most likely have failed like the earlier lost colony of 
Roanoke. England may have lost its claim on the New World and our 
history would have been vastly different. Instead, he planted the seeds 
of our American democracy right here in the arms of the Chesapeake and 
provided inspiration to our county's founding fathers, such as Thomas 
Jefferson when writing the Declaration of Independence.

               MARITIME HERITAGE, TOURISM AND RECREATION

    The Chesapeake community is very excited to celebrate the upcoming 
400th anniversary of the founding of Jamestown and the compelling tale 
of Smith's exploration of the Chesapeake and his interactions with the 
American Indians. The idea for the John Smith Watertrail has built off 
of local enthusiasm and makes sound economic sense. Smith is a proud 
part of the region's rich maritime and cultural heritage, which 
includes the fleets of working boats tied up to the docks at watermen's 
villages, restored 19th century skipjacks and buyboats, Native American 
villages, and documentation in local maritime museums. John Smith's 
waterways of history would link these features with other recreational, 
cultural and historic destinations providing a highly desirable tourism 
opportunity for the region.
    The potential historic tourism opportunities that the watertrail 
would provide have garnered the support of the Chesapeake Bay 
Commission, the Chesapeake Executive Council, and economic development 
officers from Maryland, Virginia and various local governments. 
Involving communities, non-governmental organizations, public agencies, 
business and private landowners in establishing the watertrail would 
demonstrate a new model for public-private partnerships so crucial to 
protecting the ecological integrity of working landscapes and the 
ability to experience history.

                    TRAIL INITIATIVES AND SUPPORTERS

    An expansive network of diverse organizations that support the 
creation of the watertrail has developed over the last few years. For 
example, Sultana Projects Inc., which runs maritime education programs 
for students out of Chestertown, Maryland, is building a replica of 
John Smith's 28-foot boat used in mapping the Bay. In June of 2007 they 
will retrace Smiths journey in the boat.
    On the Eastern shore, the town of Vienna, Maryland funded a 
geographer at Salisbury University to research exactly where Smith 
voyaged on the Nanticoke River. The town of Vienna is also interested 
in building a John Smith Discovery Center.
    The Commonwealth of Virginia is developing the first two trail 
segments of the watertrail on the James and York rivers as part of the 
quadracentennial celebration.
    The Chesapeake Bay Foundation, a regional 115,000-member grassroots 
environmental organization dedicated to preserving and restoring the 
Chesapeake Bay, is an active collaborator and supporter of a national 
historic watertrail. The Foundation uses Smith's journals and 
descriptions of the Bay 400 years ago as the baseline for their annual 
State of the Bay report and in their education program.
    Reflecting this excitement building for the 2007 celebration, many 
key officials have pledged their support, including: Governor Ehrlich 
of Maryland, Governor Warner of Virginia, Governor Rendell of 
Pennsylvania, Governor Minner of Delaware, and Mayor Williams of the 
District of Columbia, as well as the chair of the Chesapeake Bay 
Commission Michael Waugh.
    The National Geographic Society (NGS) has also recognized the 
historic contributions of Smith. It is producing several Captain John 
Smith and Chesapeake Bay related products including an article in the 
upcoming June 2005 issue of National Geographic Magazine. NGS is also 
creating a wall map, one side to describe the Chesapeake Bay as it is 
today and the opposite side to depict the John Smith trail, with Indian 
sites and other historic markers. The intent is to distribute this map, 
supported by an educational website and other educational materials to 
schools in the watershed, in conjunction with Chesapeake Bay 
Foundation. In 2006, an NGS publication will include guide information 
for boaters who want to follow Captain John Smith's routes around the 
entire Bay trail.

                               CONCLUSION

    The Chesapeake is an American treasure. It is the cradle of our 
nation, and ties us to our history as a nation from Yorktown to Capitol 
Hill. The Chesapeake is also a working landscape providing billions of 
dollars annually to the economy of the region and is cherished by the 
millions of people that live near its shores. I feel that a study of 
the Captain John Smith Chesapeake National Watertrail would find 
exceptional opportunities for unparalleled recreation and historical 
tourism experiences, education, and stewardship.
    S. 336 recognizes the riches of the Chesapeake, just as John Smith 
did when referring to the Chesapeake and said ``Heaven and earth never 
agreed better to form a more perfect place for man's habitation.'' I 
urge your favorable consideration of this bill and would be prepared to 
answer any questions you may have.

    Senator Thomas. Thank you. Thank you both.
    Mr. Noonan, what is the name of this facility now?
    Mr. Noonan. Presently the watertrail does not exist. What 
we are calling for is a study as to the feasibility of creating 
a multi-State jurisdiction national watertrail.
    Senator Thomas. The Captain John Smith Chesapeake National 
Historic Watertrail is----
    Mr. Noonan. That is the proposed name of the study to 
create that.
    Senator Thomas. And that would be the first. So there is no 
name to it now particularly.
    Mr. Noonan. No. This would be the name that we are 
proposing as part of the study to be conducted by the National 
Park Service.
    Senator Thomas. Apparently, as I mentioned to the other 
gentleman, there are others. This was the first one where the 
route is entirely over water apparently.
    Mr. Noonan. This is the first of its kind over water and 
multi-jurisdictional. Four States and the District of Columbia 
would be affected.
    Senator Thomas. I see. Thank you.
    Ms. Lowe, you indicated that the Park Service is a partner. 
What role have they played in this?
    Ms. Lowe. Well, as was indicated, they have actually been 
very instrumental in all the technical support and the 
condition assessment of the facility and of all the preliminary 
condition assessment reports. They actually even helped us to 
write our proposal when we received our National Historic 
Landmark designation. We have worked very closely with the 
GGNRA. Superintendent Brian O'Neal has been instrumental in 
helping us plan out our strategies for how to raise money on 
this project. And of course, we did receive the $500,000 in 
Save America's Treasures dollars.
    Senator Thomas. So the Park Service apparently is somewhat 
concerned about just doing the money.
    Ms. Lowe. Yes.
    Senator Thomas. It being not a State park or not really an 
affiliated State area.
    Ms. Lowe. I am sympathetic with that. Of course, we all 
worry about the dollars. I have to say that if we had been able 
to squeeze really $18.5 million from California State and as 
this is a national story, we feel that the location is much 
less an issue than the significance of the story. Of course, 
during its time of operation as an immigration station, it was 
Federal property. It was turned over to State parks in 1963.
    Senator Thomas. Well, I understand your situation. On the 
other hand, I understand what the parks are saying. We have 388 
parks in this country and some other sort of historic sites, 
all of which the Government has some responsibility for. So 
there is not an excess of dollars, as you know.
    Ms. Lowe. I understand. So we can either make the pie 
bigger or maybe we can be creative and find a way to make this 
a national historic site. In talking to your staff, I 
understand that there might be ways around this if we really 
put our minds to it.
    Senator Thomas. Well, it is certainly very interesting, and 
we will be happy to take both of these under advisement.
    We thank both of you for being here.
    Ms. Lowe. I appreciate very much the opportunity to answer 
your questions and also to bring our heads together on this.
    Senator Thomas. I appreciate it. If we have any further 
questions, we will get them to you and put them in the record.
    The subcommittee is adjourned.
    [Whereupon, at 3:25 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Angel Island Immigration Station Foundation,
                                        Board of Directors,
                                   San Francisco, CA, May 19, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: Thank you for your kind note which I received 
this afternoon regarding my testimony on behalf of Angel Island 
Immigration Station Foundation (AIISF) to the Subcommittee on National 
Parks on April 28, 2005. Your consideration of our request to enable 
AIISF to be eligible for federal funds is greatly appreciated. The 
approval of such legislation would be extraordinarily helpful in our 
efforts to restore this National Historic Landmark and create the 
``Ellis Island of the West.''
    I hope this directly answers the questions raised in your letter. 
Please feel free to contact me directly at (415) 824-5599 if I can 
provide more information or clarification.
    Again, we deeply appreciate your consideration of this extremely 
important request.
            Sincerely,
                                              Felicia Lowe,
                                                    Vice President.
[Enclosure.]
    Question 1a. What sources have you approached for funding to 
perform the restoration work?
    Answer. AIISF has been a legal 501 (c)(3) since 1985 and has 
existed solely on the contributions of foundations, corporations and 
individuals since then. We have approached a myriad of specific sources 
within those three general categories. Approximately 2,500 individuals 
have donated to Angel Island over that period ranging in size from $5 
to $100,000. In addition, we hold a Fall Fundraising event each year 
largely sponsored by local corporations such as Wells Fargo Bank, Bank 
of America, United Parcel Service, etc. In total, approximately 50 
corporations have donated at least $1,000 to our restoration work 
through this effort.
    AIISF has approached dozens of local (and some national) 
foundations and have received grants from approximately 40 different 
foundations including the San Francisco Community Foundation, the 
Evelyn and Walter Haas, Jr. Fund, the Marin Community Fund, the Gerbode 
Foundation, the Getty Trust and the Richard and Rhoda Goldman Fund. The 
grants have ranged in size from $5,000 to $200,000. As was mentioned at 
the hearing, the State of California approved a bond allocating $15 
million to Angel Island Immigration Station and AIISF successfully 
applied for a California Cultural and Historical Endowment grant for 
which $3 million has been recommended towards the restoration work.
    As we move forward with our $50 million capital campaign to restore 
the Immigration Station, we expect to expand the scope of funders 
nationwide.
    Question 1b. Have you pursued funding from existing federal 
preservation programs?
    Answer. After National Historic Landmark designation was achieved, 
AIISF did receive $500,000 through the federal program, Save America's 
Treasures. That, however, is the only source of federal funds which 
have been sought and obtained. Because the Angel Island Immigration 
Station Foundation is on state-owned property, we have been ineligible 
to receive federal funds beyond the Save America's Treasures grant. 
This is a significant hindrance to our ability to successfully fund 
this national project which during its period of operation was 
enforcing federal legislation. Passage of S. 262 will allow us to seek 
additional federal funds.
    Question 2. What is the annual visitation to Angel Island?
    Answer. More than 1 million people currently visit Angel Island 
each year with over 60,000 (\1/2\ of whom are school children) making 
special trips to tour the Angel Island Immigration Station.
    Question 3. Are there user fees charged for visiting the site?
    Answer. There are no user fees to visit the Island or the 
Immigration Station. There is a fee charge for transportation to Angel 
Island by the privately owned ferry company, and there is an optional/
suggested donation fee of $2 for those taking a tour of the Immigration 
Station.
    Question 4. How many buildings are part of the immigration station?
    Answer. There are 7 original buildings that are a part of Angel 
Island Immigration Station including:

  <bullet> The Detention Barracks
  <bullet> The Hospital
  <bullet> The Power House
  <bullet> The POW Mess Hall
  <bullet> The Pump House
  <bullet> The North and South Barracks
  <bullet> The Mule Barn

    Question 4a. Will this funding restore all of the structures 
associated with the immigration station?
    Answer. No. Only the Detention Barracks, the Hospital, and the 
Power House are included within our $50 million capital campaign. The 
Hospital is the second most important structure and will house a 
museum, family/genealogy research center and public space for learning 
and performances. It is in horribly dilapidated condition and it is our 
hope that federal dollars will help shore up this structure before it 
collapses. The $15 million in California State bond which covers the 
costs of Phase I restoration of the Detention Barracks with its 
precious poems carved on the walls is now underway. In addition, the 
original footprint of the Administration Building that burned down in 
1940 will be used for circulation and interpretation. The remaining 
buildings may be renovated at a later date and would require additional 
funding. But the restoration of these additional buildings is not 
central to the core project of restoring the Immigration Station.
    Question 4b. What is the total estimate to restore all buildings?
    Answer. The total restoration cost for the three primary buildings 
is approximately $40 million. An additional $5 million will be raised 
for interpretive programs and exhibits and $5 million will be needed to 
support all the administrative functions of the national campaign, the 
Angel Island Immigration Station Foundation and staff time for project 
management.
                                 ______
                                 
                        Department of the Interior,
           Office of Legislative and Congressional Affairs,
                                      Washington, DC, May 26, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are answers to the follow-up questions 
from the hearing held by the Subcommittee on National Parks on April 
28, 2005, on H.R. 126, S. 242, S. 262, S. 336, S. 670, and S. 777. 
These responses have been prepared by the National Park Service.
    Thank you for giving us the opportunity to respond to you on this 
matter.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]

                     Questions From Senator Thomas

    Question 1. (H.R. 126, Cape Lookout National Seashore, Shackelton 
Ponies): Legislation to establish a target population for one species 
does not happen very often. Is it necessary to define such a narrow 
target population and will it be possible to achieve?
    Answer. Statutory restrictions already have been enacted to 
establish a target population for one species. H.R. 126, now under 
consideration, if amended as recommended by the National Park Service, 
would broaden the target range of the horses by ``allowing periodic 
population expansion of the herd to a maximum of 130 horses''. While it 
is possible to achieve a narrower target population, it would require 
intensive management. The NPS believes that the ecology of the island 
and the genetic viability of the herd would be better protected if the 
population were allowed to fluctuate over time.
    Question 2a. (S. 242, Space Shuttle Columbia Memorials): 
Commemoration of the tragedy that occurred on February 1, 2001, is 
necessary and appropriate. Memorialization of that tragic event has 
been done at several locations, notably; the Space Mirror Memorial 
dedicated to all our fallen astronauts, a commemorative plaque at 
Arlington National Cemetery, and a `Columbia Room' has been dedicated 
at the Vehicle Assembly Building of the Kennedy Space Flight Center in 
Florida.
    How will the establishment of the Space Shuttle Columbia Memorial 
complement these efforts?
    Answer. In addition to the memorials mentioned above, as we stated 
in our testimony there are other memorials dedicated to individual 
astronauts and there may be additional memorials that we are unaware of 
A study would be the best way of developing a comprehensive list and 
understanding of what memorials already exist and how these memorials 
might complement or duplicate commemoration efforts.
    Question 2b. What management role will the National Park Service 
have in this memorial?
    Answer. A study would also address an appropriate role for NPS in 
the management of the memorial depending on the type of memorial 
recommended.
    Question 2c. Will private donations be used in the design and 
construction of these memorials?
    Answer. Hopefully, private donations would be a significant part of 
the process, but again, a study that examines the type of memorials 
that would be established should be done. A study would examine the 
interest and feasibility of relying on private-sector contributions for 
a memorial.
    Question 3a. (S. 262, Angel Island Immigration Station): Angel 
Island Immigration Station is maintained and operated by the State of 
California.
    What management responsibility does the National Park Service 
currently have at Angel Island Immigration Station?
    Answer. The National Park Service has no management responsibility; 
the immigration station is owned and managed by the State of 
California. The Park Service role has been limited to one of assisting 
in developing a restoration and interpretation strategy and managing 
contracts for some reports and assessments that were done to guide the 
preservation efforts.
    Question 3b. Has the property been evaluated for possible 
designation as a unit of the National Park System?
    Answer. Angel Island is a state-owned property located within a 
unit of the National Park System, the Golden Gate National Recreation 
Area. In the FY 1999 appropriations for the Department of the Interior, 
the National Park Service was directed to ``evaluate the feasibility 
and desirability of preserving and interpreting sites within the Golden 
Gate National Recreation Area, including the Angel Island Immigration 
Station, that are related to immigration.'' The NPS made an informal 
determination that, although it was possible that Angel Island might 
meet the criteria for inclusion in the National Park System, there was 
no need to pursue evaluation of NPS management of the site because the 
State of California wanted to continue managing it.
    Question 4. (S. 336, Captain John Smith Chesapeake National 
Historic Watertrail feasibility study): Does the NPS currently manage 
any watertrails?
    Answer. Yes. As part of the National Park System, we have some 
units such as Everglades National Park and Virgin Islands National 
Park, which contain water trails that we manage. In addition, some Wild 
and Scenic Rivers are part of the National Park System that contain 
miles of water trails.
    As part of the National Trails System, we administer two trails 
that traverse both water and land. The Lewis and Clark National 
Historic Trail is administered by NPS, with most of the trail following 
the Missouri and Columbia Rivers. The Trail of Tears National Historic 
Trail is administered by NPS, in partnership with other federal 
agencies, State and local agencies, non-profit organizations, and 
private landowners. The Corps of Engineers manages the water trail part 
of the Trail of Tears NHT. Finally within the Chesapeake Bay Gateways 
Network, there are 22 water trails. These are primarily managed by 
State, regional, and local governments, and non-profit organizations.
    Question 5a. (S. 670, Cesar Chavez Farm Labor Movement, special 
resource study): What type of potential National Park designations are 
being considered as part of this special resource study?
    Answer. We will not know what types of National Park Service 
designations, if any, might be appropriate until the study is 
authorized and we begin examining sites. Often in cases where we are 
looking at multiple sites, we look at not only potential designations 
as a unit of the National Park System, but also potential designations 
as a national heritage area or a trail or some other entity. Often 
studies find that the National Park Service should have no role or a 
very limited one in managing the resource. About three quarters of our 
studies end up with a recommendation for actions that are more 
appropriately carried out by another entity and do not involve 
management by the National Park Service.
    Question 5b. How many sites will be evaluated as part of this 
special resource study?
    Answer. We won't know how many sites we will evaluate until the 
study is authorized and we determine the scope of the study.
    Question 6a. (S. 777, Catoctin Mountain Park name change to 
Catoctin National Recreation Area): Have community meetings been held 
regarding the name change?
    Answer. On May 2, 2005, the Superintendent of Catoctin Mountain 
Park briefed President William O'Neil of the Town of Emmitsburg (the 
northern gateway community for the park) regarding the change in unit 
designation for Catoctin Mountain Park. At that meeting the Board voted 
5-0 to endorse the name change in a resolution.
    Question 6b. Does the name change have local support?
    Answer. The town of Smithsburg in Washington and Frederick 
Counties, MD is in full support of the National Recreation Area 
designation. The town of Thurmont in Frederick County would also prefer 
the national recreation area designation.
    Question 6c. The legislation gives the National Park Service 
authority for land acquisition. How much land have you identified for 
possible acquisition?
    Answer. The land acquisition authority is a restatement of existing 
authority from Executive Order 7496, which established and provided the 
acquisition authority for the Recreational Demonstration Project, of 
which Catoctin is one, in 1935. We currently have approximately 1.0 
acres proposed for acquisition as part of a land exchange to correct a 
surveying error.
    Question 6d. Who owns the land being considered for acquisition and 
are any landowners opposed to this effort?
    Answer. The land is owned by a single park neighbor who is 
considering our offer at this time. There is no opposition to this land 
exchange. Any acquisition would be only from a willing seller.

                      Question From Senator Allen

    Question 1. The Park Service has again proposed an amendment that 
would install a hard cap of 130 wild horses on Cape Lookout National 
Seashore. However, when asked about this in the two prior congressional 
hearings on the bill, NPS stated that their support was not contingent 
upon adoption of their suggested amendment.
    It is my understanding that the scientific consensus surrounding 
the genetic viability of the Shackelford Banks herd is that in order 
for the population to remain viable, it should be allowed to fluctuate 
between 110 and 130, and to bloom occasionally to slightly above 130 
(only of course to be brought back down again in future roundups).
    Furthermore, I understand the experience with National Park Service 
management of the horses under the existing statute is that 
administering a hard cap is controversial, unnecessarily inflexible and 
impractical. We don't want to perpetuate the problem by forcing the 
Park Service to immediately remove a horse should the population go to 
131.
    In light of these things, I trust that the Park Service will 
continue its past position of supporting the bill with or without the 
amendment. Is that the case?
    Answer. The Department supports H.R. 126, with an amendment 
regarding the population range of the horses that allows the number of 
horses to fluctuate between 120 and 130 free roaming horses and allows 
for a periodic population expansion of the herd to a maximum of 130 
horses. This number is based on sound science and provides the 
population changes which are necessary for maintaining the genetic 
viability of the herd.
                                 ______
                                 
                                     The Conservation Fund,
                                       Arlington, VA, May 18, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Thomas: Thank you for the opportunity to testify 
before the Senate Subcommittee on National Parks in support of S. 336, 
a bill to authorize a feasibility study of the Captain John Smith 
Chesapeake National Historic Watertrail.
    Captain John Smith's role in establishing Jamestown and his 
monumental exploration of the Chesapeake Bay is a compelling national 
story. This legislation would recognize the importance of his voyage.
    In response to your letter of May 1, 2005, I have attached answers 
to the questions that you submitted for the record. Please let me know 
if you need additional information. I look forward to working with you 
to pass this important legislation.
            Sincerely,
                                         Patrick F. Noonan,
                                                 Chairman Emeritus.
[Enclosure.]

                      Question From Senator Thomas

    Question 1. A watertrail is a new concept for the National Park 
Service (NPS), are there examples of watertrails managed by other 
entities?
    Answer. There are over 400 watertrails across the country managed 
by federal, state, and local government agencies, non-profit 
organizations, and partnerships among these entities. The NPS manages 
water trails in units of the National Parks System, and in components 
of the National Trails System (NTS) and the National Wild and Scenic 
Rivers System (NWSRS). For example, in the units of the National Parks 
System, Everglades National Park has canoe trails, and the Virgin 
Islands National Park has an underwater trail. In the case of the NTS, 
both the Lewis and Clark National Historic Trail and the Trail of Tears 
have terrestrial and aquatic components. Lastly, units of the NWSRS 
have water trails within them, such as with the Upper Delaware Scenic 
River.
    Twenty-four states currently manage watertrails along with numerous 
non-profit organizations. The following are examples of watertrails 
from across the country:

  <bullet> Maine Island Trails: This trail runs for 325 miles along the 
        coast of Maine, extending from Casco Bay to Machias Bay. It 
        includes over 135 public and private sites along the route. The 
        Maine Islands Trails Association maintains the trail.
  <bullet> Lake Superior Water Trail: This trail was established by the 
        Minnesota Legislature in 1993 and will eventually be 150 miles. 
        The development and maintenance of the Water Trail is a joint 
        effort of the Minnesota Department of Natural Resources and the 
        Lake Superior Water Trail Association of Minnesota.
  <bullet> Washington Water Trails: Washington State has an array of 
        watertrails, which connect inland lakes, rivers, waterways, and 
        ship canals with the shores of Puget Sound and the Pacific 
        Ocean. The Washington Water Trails Association coordinates 
        them.
  <bullet> Northeastern Illinois Water Trails: These trails are located 
        in Northeastern Illinois. There are over 10 trails that compose 
        nearly 500 miles of recreational water routes. The watertrails 
        are managed through a partnership of local governments and 
        volunteers.
  <bullet> Pennsylvania Water Trails: The Pennsylvania Fish and Boat 
        Commission (PFBC) have designated 17 official Pennsylvania 
        water trails. While the PFBC coordinates and designates the 
        trails, individual trails and trail corridors are conceived and 
        maintained by a network of volunteers, property owners, civic 
        groups and associations.

    We would be pleased to provide more details upon request.
    Question 2. How many sites in how many states do you anticipate 
being part of the watertrail?
    Answer. Captain John Smith's routes of travel included Virginia, 
Maryland, Delaware, the District of Columbia and the northern extent of 
his exploration nearly reached the Pennsylvania border. Should Congress 
pass this legislation, the number of sites would ultimately be 
determined by Congress or through a planning process as delineated by 
the authorizing legislation establishing the trail.
    Question 3. Are any recreation sites currently managed along the 
proposed route of the watertrail?
    Answer. Yes. There are many local, state and federal recreation 
sites currently managed along the proposed watertrail. These include: 
eight National Wildlife Refuges, over 20 state parks, and hundreds of 
local parks and facilities.
    Question 4. Do you anticipate any recreation sites or economic 
development as a follow-on to the feasibility study or is the goal to 
document the history of an area?
    Answer. By directing the Secretary of the Interior to carry out a 
study of the feasibility of designating the Captain John Smith 
Chesapeake National Historic Watertrail as a national historic trail, 
the bill will improve historical documentation of the Bay area. If the 
National Park Service finds that the watertrail is both feasible and 
nationally significant, and Congress establishes the trail, then we 
anticipate that the watertrail will promote tourism and recreation-
related economic development, including guide services and hotel 
accommodations.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

Statement of Hon. Hilda L. Solis, U.S. Representative From California, 

                               ON S. 670

    Thank you, Chairman Thomas and Ranking Member Akaka, for the 
opportunity to testify in support of S. 670, a bill to authorize a 
special resource study by the Department of Interior to honor the life 
of Cesar Estrada Chavez. I appreciate the leadership of Senators McCain 
and Salazar, and appreciate your willingness to give this legislation 
quick hearing in your Subcommittee. I hope the full Energy and Natural 
Resources Committee will consider this legislation in a timely manner. 
I look forward to its passage again by the U.S. Senate.
    Chavez was a humble man who knew the importance of hard work and 
sacrifice. Raised during the Great Depression, Chavez's family lost 
everything and he was forced to wander the southwestern United States 
with thousands of other farm-worker families. Farm workers were united 
as they fought to survive in the often harsh working and living 
conditions of the migrant life. As a migrant farm worker he learned the 
value of community and family.
    Chavez eventually left the fields in 1952 and joined the Community 
Service Organization where he conducted voter registration drives and 
campaigns against racial and economic discrimination. In 1962, Chavez 
returned to help farm-worker families and started the National Farm 
Workers Association. Today we know this organization as the United Farm 
Workers of America.
    Chavez was a student of Mahatma Gandhi's non-violent philosophies. 
The United Farm Workers continues the tradition of peaceful protest to 
achieve change. Through this philosophy they have fought for fair 
wages, health care coverage, pension benefits, housing improvements, 
pesticide and health regulations and countless other protections for 
the health and wellbeing of the farm worker and their family.
    It is appropriate that this legislation authorizes the Department 
of Interior to do a special resources study to examine the areas that 
Chavez lived for potential incorporation into the National Park 
Service. Ninety-six percent of Latinos believe the environment should 
be an important priority for this country; we understand the link 
between our environment and our health. As a child, my parents couldn't 
afford to take my siblings and me on vacations, but nonetheless they 
made sure we enjoyed the outdoors and learned to value and appreciate 
what we have. It would be an honor to know that future generations can 
walk through our National Park System and find ways this nation has 
honored the legacy of one of our own, Cesar E. Chavez.
    Despite the legacy of people like Chavez, there are no historical, 
geographical or cultural designations in the National Park Service for 
the Latino community. The life of Cesar Chavez provides an outstanding 
opportunity to correct this injustice, by demonstrating and 
interpreting the history of agricultural labor in the west through the 
National Parks Service. A true American hero and co-founder of the 
United Farm Workers, Chavez was a civil rights, and labor leader. A 
religious and spiritual figure, a community servant and social 
entrepreneur, he was a crusader for nonviolent social change, and 
environmentalist and consumer advocate. The stories of his struggles 
and triumphs need to be communicated and preserved for all Americans.
    Since I was a young Latina, Cesar Chavez has been my inspiration. 
His work inspired me to find ways to help others and led me to civil 
service where I strive to do the best I can for those I represent.
    I was the author and the primary sponsor of this legislation in the 
U.S. House of Representatives in the 108th Congress, and I plan to 
reintroduce this legislation again. Last year I was very pleased when 
the U.S. Senate passed this legislation unanimously. I am glad Members 
of Congress recognized the great influence of Cesar E. Chavez. I look 
forward to the opportunity to reintroduce this language in the House 
and hope that this session, unlike last, the House will also quickly 
consider this important legislation.
    Thank you again.
                                 ______
                                 
                   Statement of Edward Wright Haile*
---------------------------------------------------------------------------
    * Edward Wright Haile is a leading expert on Captain John Smith. In 
1998, he published the almost 1,000 page Jamestown Narratives--
Eyewitness Accounts of the Virginia Colony, an edited collection of all 
primary source material for the first ten years of the Jamestown 
Colony.
---------------------------------------------------------------------------
           AMERICA, THE CHESAPEAKE BAY, AND CAPT. JOHN SMITH

    Captain John Smith's Chesapeake Bay dwarfs any other stretch of our 
coastline in historical firsts. It was on the broad estuary first 
explored and mapped by the great captain in 1608 that the American idea 
was first tried. Here America began in England's first successful 
colony in 1607: the America of democracy and British dominion; the 
America of freedom and slavery. Here was the first society to proclaim 
religious liberty, the first government to separate church and state. 
Here were the earliest forms of county and state government. The first 
American deeds were written for Chesapeake land. When Jefferson wrote 
that all men were created equal, he was thinking of a colonist on the 
Chesapeake Bay. Our first president was the president of the council at 
James Fort. The House of Representatives and the Senate are a direct 
outgrowth of that council and the elected House of Burgesses at 
Jamestown. In July 1619, what else deserves to be called the cradle of 
democracy? The distance from the cattails at Jamestown island to the 
cattails below Capitol Hill is two hundred and twenty-two miles. Up the 
Chesapeake Bay.
    Here was the common man's first foothold on history. The Council of 
Virginia, sitting in London, sent a direct appeal to the lord mayor of 
the city:

          And if the inmate enjoined to remove shall allege he hath not 
        place to remove unto, but must lie in the streets, and being 
        off'red to go THIS JOURNEY shall demand what may be their 
        present maintenance, what may be their future hopes--it may 
        please you to let them know that for the present they shall 
        have meat, drink, and clothing, with an house, orchard, and 
        garden, and a possession of lands to them and their posterity: 
        ONE HUNDRED ACRES. (16 March 1609)

    It set off an explosion still going on.
    The first settlers at Jamestown (officially Anglican) included 
Puritans, Catholics, atheists; even an individual who asked the council 
if he might become a citizen of Virginia if he was a subject of the 
shah of Persia. (The answer was yes.) The roster of early arrivals 
included, among good old British names, a large group that could be 
considered as merely first or second generation Anglicized: Anas 
Todkill (Dutch?), Richard Mullinax (French?), Abram Ransack (Jewish?), 
Anthony Bagnall (Italian?). The craftsmen at the glassmaking shop in 
1608 were Polish. Germans built the emperor Powhatan a modern home at 
Werowocomoco.
    As the colonists came increasingly in contact with local Indians up 
and down the Bay, the words chinquapin, chum, hickory, hominy, 
moccasin, opossum, pecan, persimmon, (corn)pone, pokeberry, raccoon, 
roanoke, squaw, terrapin, tomahawk entered our speech to stay. H. L. 
Mencken's American Language was Powhatan first.
    After several prior failures, England staked much treasure and 
prestige on the survival of her Chesapeake colony. Had it failed, 
America would have become French, Dutch, Swedish, Spanish. Or nothing 
at all. There would have been no thirteen colonies.
    Actually, it did fail, in a fashion. There were more lives lost 
establishing a beachhead on the Chesapeake than were lost at Normandy. 
On the morning of June 6, 1610, the English settlement at James Fort, 
racked by starvation and disease, was abandoned. One hundred colonists 
boarded ship to return to England. On the evening of the same day, the 
supply fleet of Lord Delaware met them off Mulberry Island in the 
James, and America was resuscitated.
    It returned to serve as the model and the inspiration to all that 
followed. After 1610, colony-making was no longer a gamble in the dark. 
The East Coast was mapped, techniques were perfected, startup costs 
calculated, Englishmen were familiar with native cultures and 
languages. Samuel Argall, operating out of Jamestown in 1613, swept the 
French from of an area that Captain John Smith a year later would dub 
``New England.'' The Plymouth Colony, facing its share of shortages and 
hardships in the 1620s, was relieved with supplies from the Chesapeake 
Bay. All at once, in the wake of that epochal period, one speaks of 
northern colonies, middle colonies, southern colonies, and the seaboard 
map is filling up and thickening westward.
    The Bay's first explorer is that same Captain John Smith. Of plain 
origins, he became America's first and strongest popular leader and 
best Indian trader. He was an adventure writer who lived the life. He 
was an historian and lexicographer. He studied Indian culture and spoke 
the Powhatan language. He promoted Virginia (read American) 
colonization in print, cataloging its plants, describing its soil. His 
contemporaries recognized his achievement and gave him the credit for 
having supplied the firm hand as president that saved the Jamestown 
colony at its first nadir. If George Washington is the father of our 
country, John Smith is the grandfather.
    The colony was a year old when, over the summer of 1608, he made 
two back-to-back Chesapeake voyages of discovery of 1100 miles each. He 
chose fourteen volunteers to man a thirty-foot open boat, with sails 
and oars, calling it a ``discovery barge.'' It was supplied with a 
week's rations and water, firearms, including fireworks (to impress the 
natives), navigational instruments, trade goods, writing materials, a 
first-aid kit (one crewman was a doctor). In the event of bad weather, 
they were expected to huddle under a tarpaulin, but no proper tent. 
They were gone a month and a half, came back, rested and recouped for 
three days; Smith picked twelve volunteers (eight were the same men), 
and they left to be gone another month and a half. A crewman describes 
their task and the result:

          . . . to search [for] a glistering metal . . . but all we got 
        proved of no value. Also to search what furs and what other 
        minerals, rivers, rocks, nations, woods, fishings, fruits, 
        victual, and what other commodities the land afforded, and 
        whether the bay were endless or how far it extended.
          Of mines we were all [disappointed], but a few [fur-bearing 
        animals] we found, and in divers places that abundance of fish 
        lying so thick with their heads above the water as for want of 
        nets we attempted to catch them with a frying pan, but . . . in 
        the Bay of Chesapeack [despite superabundance] they are not to 
        be caught with frying pans!

    And further:

          To express all our quarrels, treacheries, and encounters 
        amongst those savages I should be too tedious, but, in brief, 
        at all times we so encount'red them and curbed their 
        insolencies that they concluded with presents to purchase 
        peace, yet we lost not a man. At our first meeting, our captain 
        ever observed this order: to demand their bows and arrows, 
        swords, mantles, and furs, with some child or two for hostage, 
        whereby we could quickly perceive when they intended any 
        villainy.

    The first day out took him through Hampton Roads, 254 years later 
to witness the birth of ironclad warfare between the Monitor and 
Merrimac.
    On days three and four the explorers sounded the waters of the 
Eastern Shore inlet where in the 1620s William Johnson would be 
America's first black landowner.
    Within a week Smith's party were the first Englishmen to enter the 
future colony of Maryland. They ascended the Nanticoke River to set 
foot on the southwest corner of Delaware. The discovery barge landed on 
Tangier Island in search of water. Today it is still inhabited by 
direct descendants of 17th-century settlers.
    Crossing the Bay and cruising up the western shore of Maryland, 
Smith found it devoid of population despite its ``dense woods and 
fertile valleys.'' Englishmen read that in 1612 and wanted to go by the 
hundreds, then by the thousands. If it was true of Maryland and 
Virginia, it had to be true of the whole East Coast.
    He passed the site of the Naval Academy on June 11, the next day 
Baltimore harbor. Rowing past Fort McHenry Point, he heard no chorus 
sing ``The Star-Spangled Banner,'' but if he had he would have been on 
his feet. He writes in his General History that the land and the water 
were rich beyond imagination, and would give rise to the greatest 
nation on earth. The same day up the Patapsco River, on foot he passed 
over the 1731 birthplace of Benjamin Banneker.
    He turned south to the Potomac River, visiting its ``king's 
houses,'' passing the birthplace of George Washington on the way from 
Cecomocomoco to Potapaco. He looked into Pohick Bay, home of the Bill 
of Rights, to stop next at Namassingakent, today Mount Vernon, crossing 
the river that afternoon to Moyaons, the king's house of the Piscataway 
tribe. The Piscataway are still there. The next day, July 3, 1608, 
being the very day that Samuel de Champlain founded the city of Quebec, 
620 miles to the north, Captain John Smith discovered the District of 
Columbia and cruised past the site of the Lincoln Memorial, lands 180 
years later surveyed by Washington and Banneker.
    On his second voyage Smith's party cruised directly to the Bay's 
headwaters, mapping en route the site of Maryland's first English 
settlement in 1631.
    They met a fleet of seven bark canoes on 31 July. It was the first 
encounter of the English and the mighty Iroquois. The League of the Six 
Nations later served as Benjamin Franklin's federal model for the 
Constitution.
    Smith named the place Pisings Point, after Edward Pising, a 
carpenter and a soldier. Other explorers named places after saints or 
royalty or wealthy patrons. Smith often named his discoveries for the 
men beside him on the bench pulling oars. America was already going to 
be different from Europe.
    A week later, climbing Fair Hill, the explorers gazed over the 
broad Delaware estuary below Philadelphia. It was another two years 
before Lord Delaware discovered its sea mouth.
    Rowing up the Bay's greatest river to the head of tide and to a 
modern state line, the Captain met five chiefs of the Conestoga tribe 
of central Pennsylvania. Their land would be purchased a century later 
to become the nation's richest farm country and the center of 
Pennsylvania Dutch settlement.
    He learned from them that an era was coming to an end. A hundred 
and sixteen years after Columbus and the sponsors of voyages of 
discovery were still hoping to find a way around or through the 
continent to Asia. Cabot, Verazzano, Frobisher, Drake, Cartier, and 
other explorers had fed hopes of a northwest passage. Captain John 
Smith named the rapids of the Susquehanna ``Smith's Falls'' on August 
2nd, and it is fair to say the lash hope of a sea route to China was 
gone.
    On an evening in early September the explorers passed the mouth of 
the York, rowing southward in a calm to drop anchor beside it a small 
bay named for Bartholomew Gosnold, who had been the principal 
instigator and organizer of the 1607 colonization. In passing south of 
the York, Smith had completed his 2500-mile exploration establishing 
England's continental claim. Yet it was here in 1781 the French fleet 
would blockade the army of Cornwallis at Yorktown and bring about the 
surrender of it all--to a new nation. And sent the British packing to 
Champlain's Canada!
    At Smith's return, the London Company now had a map that is still 
usable and accurate, including the charting of shoals. They had a 
location of settlements and a description of native America, a census 
of its ``bowmen,'' including tribal names and territories, with an 
accompanying text of eight thousand words.
    Smith's Chesapeake discoveries made it clear that America was not 
about gold and silver but about achievement and hard work. America was 
the opportunity of land--rich, broad, and deep-soiled. It was not a 
Peru or Mexico of instant conquest and treasure, nor was it an island 
of lotus eaters. Its resources would yield only to yeoman faith, 
patience, and ``American'' ingenuity. To Smith's kind of people.
                                 ______
                                 
                            Sultana Projects, Inc.,
                        The Captain John Smith 400 Project,
                                   Chestertown, MD, April 27, 2005.
Hon. Paul S. Sarbanes,
U.S. Senate, Washington, DC.

Letter in support of Senate Bill S. 336--Captain John Smith Chesapeake 
National Historic Watertrail Study Act of 2005

    Dear Senator Sarbanes: Sultana Projects, Inc., based in 
Chestertown, Maryland, is a strong supporter of Senate Bill S. 336 and 
the Captain John Smith Chesapeake National Historic Watertrail Study 
Act of 2005.
    Our nonprofit organization is committed to this bipartisan effort 
as a way of preserving the natural, historic and cultural resources of 
the Chesapeake Bay for future generations.
    This magnificent Bay and its fragile environment is a national 
treasure, belonging to all Americans. It is the very birthplace of this 
great nation, providing life and sustenance to its native peoples for 
thousands of years, and those who have settled here in the past 400 
years.
    At the present time, Sultana Projects is engaged in a project 
marking John Smith's exploration of the Bay in 1608 and will reenact 
Smith's historic voyage in 2007, tracing a trail of nearly 1,700 miles. 
This effort will help to bring national attention to the region and 
demonstrate the viability of the national watertrail on the Chesapeake.
    As proposed, this study of the Captain John Smith Chesapeake 
National Historic Watertrail will support both conservation and 
economic initiatives needed to rebuild the rich ecology of the Bay and 
the fishing industries which once thrived here. Further, this 
initiative is a necessary first step in examining the potential for 
greater public access to the Chesapeake and its tributaries. This will 
benefit not only the 16 million people living in the Chesapeake 
watershed today, but millions of Americans who visit its waters each 
year.
    Future generations depend on our taking action now. We urge you to 
throw your full political clout behind Senate Bill 336 and press your 
colleagues to support this legislation to assure that the Chesapeake 
Bay remains a national treasure for all time.
    We appreciate your support and that of your Senate colleagues.
            Sincerely,
                                             Drew McMullen,
                                                         President.
                                 ______
                                 
                                                 February 17, 2005.
Hon. Paul S. Sarbanes,
U.S. Senate, Washington, DC.

Hon. John W. Warner,
U.S. Senate, Washington, DC.
    Dear Senators Sarbanes and Warner: The Chesapeake Bay, rich in 
cultural heritage as the cradle of our nation, and internationally 
known as a magnificent estuary abundant in natural resources, is truly 
an American treasure deserving of national recognition.
    In honor of the 400th anniversary of the founding of Jamestown in 
1607 and the voyages of exploration in the Chesapeake Bay, we support 
the establishment of the Capt. John Smith Chesapeake National Water 
Trail. The current Chesapeake Bay Gateways effort and the Water Trails 
program have been very successful, and this study would be an important 
complement to the existing effort.
    Accordingly, we wish to express our support for the bipartisan 
legislation you are introducing to authorize the National Park Service 
to study the national significance of Smith's voyages of exploration 
and the feasibility of establishing a water trail to commemorate the 
voyages. We believe that the study should include an analysis of the 
benefits of the trail for education, outdoor recreation, and heritage 
tourism.
    It is only fitting to honor the man who ensured the survival of the 
Jamestown colony, and explored and mapped in detail over 2,000 miles of 
the Chesapeake Bay. Captain John Smith set the tone for a nation based 
on egalitarian principles and fixed an indelible image of the natural 
splendors and rigors of life on this continent through his descriptions 
of American Indian culture.
    A John Smith Chesapeake National Water Trail will serve as an 
unparalleled aquatic national recreational resource--forever telling 
the story of our nation's remarkable maritime culture, historical 
settlements and our goal to sustain the world's most productive 
estuary.
    Your support of the study is critical to recognize this exceptional 
national resource.
            Respectfully,
                                   Edward G. Rendell,
                                     Governor,
                                       Commonwealth of Pennsylvania.
                                   Robert L. Ehrlich, Jr.,
                                     Governor,
                                       State of Maryland.
                                   Mark R. Warner,
                                     Governor,
                                       Commonwealth of Virginia.
                                   Ruth Ann Minner,
                                     Governor,
                                       State of Delaware.
                                   Mike Waugh,
                                     Chair,
                                       Chesapeake Bay Commission.
                                   Anthony A.Williams,
                                     Mayor,
                                       District of Columbia.
                                 ______
                                 
                          Commonwealth of Virginia,
                         Jamestown 2007 Steering Committee,
                                  Williamsburg, VA, April 26, 2005.
Hon. George F. Allen,
Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Allen: I am writing to you in support of the Captain 
John Smith Chesapeake National Historical Watertrail Study Act of 2005.
    In 1997, you began the ten-year countdown to 2007 by challenging 
the Jamestown 2007 Steering Committee to develop a vision for the 400th 
anniversary of the establishment of the first permanent English 
settlement in America. Likewise, the Jamestown 400th Commemoration 
Commission, created by Congress in 2000, is working with the Jamestown 
2007 Steering Committee and other agencies of the Commonwealth to 
facilitate and implement federal involvement in this important effort. 
Over 120 Virginia communities have taken up the challenge and are 
developing local plans and grass roots involvement that reflects the 
character of their localities. We are successfully coordinating these 
efforts and are implementing a series of exciting, entertaining and 
educational events and initiatives across the Commonwealth. These 
projects will lead up to, and extend beyond, the May 2007 commemoration 
of the landing at Jamestown.
    The designation of the John Smith Watertrail will be an opportunity 
for federal, state and local cooperation to create another important 
and lasting legacy.
    While we have been working hard to interpret many historical 
components of the early years of the settlement, few projects speak as 
pointedly to the concept of exploration as does this legislation. It 
goes beyond our mandate and capability to fully educate the public on 
the length and breadth of Smith's curiosity and struggle to document 
America's bounty. The designation of the Watertrail would be an 
extremely useful, real and thematic addition to our educational 
efforts. Additionally, many of the locations encompassed in this study 
still retain their natural beauty, to the degree that Captain Smith 
would have little trouble recognizing them were he to come back today. 
No doubt, if the Act is enacted, many future generations will have a 
firsthand appreciation of your foresight as they explore these same 
rivers, creeks, streams, coves, bays and islands for themselves.
    Please consider complementing the work of the Jamestown 2007 
Commemoration by passing this important and historic piece of 
legislation.
            Sincerely,
                                            Stuart Connock,
                                                          Chairman.

</pre></body></html>
